<html>
<title> - OVERSIGHT ON NRC'S REGULATORY RESPONSIBILITIES AND CAPABILITIES FOR LONG- AND SHORT-TERM SPENT FUEL STORAGE PROGRAMS</title>
<body><pre>[Senate Hearing 109-1074]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1074
 
  OVERSIGHT ON NRC'S REGULATORY RESPONSIBILITIES AND CAPABILITIES FOR 
            LONG- AND SHORT-TERM SPENT FUEL STORAGE PROGRAMS

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON CLEAN AIR, CLIMATE CHANGE, AND NUCLEAR SAFETY

                                 of the

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 14, 2006

                               __________

  Printed for the use of the Committee on Environment and Public Works


      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
47-642                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001



               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
LINCOLN CHAFEE, Rhode Island         BARBARA BOXER, California
LISA MURKOWSKI, Alaska               THOMAS R. CARPER, Delaware
JOHN THUNE, South Dakota             HILLARY RODHAM CLINTON, New York
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
JOHNNY ISAKSON, Georgia              BARACK OBAMA, Illinois
DAVID VITTER, Louisiana
                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director
                              ----------                              

     Subcommittee on Clean Air, Climate Change, and Nuclear Safety

                  GEORGE V. VOINOVICH, Ohio, Chairman
CHRISTOPHER S. BOND, Missouri        THOMAS R. CARPER, Delaware
JIM DeMINT, South Carolina           JOSEPH I. LIEBERMAN, Connecticut
JOHNNY ISAKSON, Georgia              FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              BARACK OBAMA, Illinois


                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 14, 2006
                           OPENING STATEMENTS

Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     7
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     5
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..     3
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey, prepared statement.....................................    36
Reid, Hon. Harry, U.S. Senator from the State of Nevada, prepared 
  statement......................................................    36
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...     1

                               WITNESSES

Bowman, Admiral Frank L. ``Skip'', U.S.N. (Retired); president 
  and CEO, Nuclear Energy Institute..............................    23
    Prepared statement...........................................    65
Gilinsky, Victor, independent energy consultant..................    26
    Prepared statement...........................................    71
    Responses to additional questions from:
        Senator Inhofe...........................................    72
        Senator Voinovich........................................    73
Johnson, R. Shane, Principal Deputy Assistant Secretary, Office 
  of Nuclear Energy, U.S. Department of Energy...................    11
    Prepared statement...........................................    56
Reyes, Luis A., Executive Director of Operations, U.S. Nuclear 
  Regulatory Commission..........................................    18
    Prepared statement...........................................    59
    Responses to additional questions from:
        Senator Inhofe...........................................    62
        Senator Jeffords.........................................    63
        Senator Voinovich........................................    64
Sproat, Edward F. III, Director, Office of Civilian Radioactive 
  Waste Management, U.S. Department of Energy....................     8
    Prepared statement...........................................    46
    Responses to additional questions from:
        Senator Inhofe...........................................    47
        Senator Voinovich........................................    48

                          ADDITIONAL MATERIAL

Letters from:
    Attorneys General of California, Connecticut, Illinois, 
      Maine, Minnesota, New Hampshire, New Jersey, New York, 
      Vermont and Wisconsin, September 7, 2006................... 41-45
    Coalition of Northeastern Governors:
        Carcieri, Donald L., chairman, Governor of Rhode Island, 
          August 2, 2006......................................... 39-40
        Douglas, James H., Lead Governor for Energy, Governor of 
          Vermont, August 2, 2006................................ 39-40
Report, Investment Portfolio, Nuclear Waste Fund, Department of 
  Energy, September 2006......................................... 51-55
Speech, Victor Gilinsky, Tucson, AZ, February 28, 1983........... 74-86


  OVERSIGHT ON NRC'S REGULATORY RESPONSIBILITIES AND CAPABILITIES FOR 
            LONG- AND SHORT-TERM SPENT FUEL STORAGE PROGRAMS

                              ----------                              


                      THURSDAY, SEPTEMBER 14, 2006

                               U.S. Senate,
         Committee on Environment and Public Works,
                Subcommittee on Clean Air, Climate Change, 
                                        and Nuclear Safety,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:35 a.m. in 
room 406, Dirksen Senate Office Building, Hon. George V. 
Voinovich (chairman of the subcommittee) presiding.
    Present: Senators Voinovich, Inhofe, Carper, and Jeffords.

  OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, U.S. SENATOR 
                     FROM THE STATE OF OHIO

    Senator Voinovich. The meeting will come to order. This 
hearing is on the Nuclear Regulatory Commission's regulatory 
responsibilities and capabilities for long- and short-term 
spent fuel storage programs. We believe that strong oversight 
is critical in this area.
    At previous oversight hearings, we have focused 
specifically on the NRC's new reactor licensing process to 
steer the Agency towards making its process more efficient and 
timely. The NRC is faced with a huge challenge in having to 
process a tidal wave of new reactor license applications that 
are expected within the next 2 to 3 years in the magnitude that 
has not been seen in the last 25 years or so.
    For this reason, we have made strong oversight of the NRC a 
top priority for this subcommittee. We need to make sure that 
the Commission is taking a balanced approach as a regulator 
that ensures the safe operation of the existing fleet of 
nuclear plants without stifling the growth of nuclear power.
    A long-term commitment to nuclear energy will make the 
United States more energy independent and energy efficient. 
This Congress and the President demonstrated strong leadership 
by enacting the Energy Policy Act of 2005, which encourages 
diversity of energy sources, including emission-free sources of 
electricity such as nuclear energy.
    In order to fully realize the benefits that nuclear power 
offers, however, a solution for the problem of disposal of 
spent nuclear fuel must be found. Since the enactment of the 
Nuclear Waste Policy Act of 1982, which requires that a final 
disposal facility be operational by 1998--did you hear that? By 
1998. Ratepayers across America have paid over $27 billion to 
the nuclear waste fund and continue to pay an additional $750 
million each year. Yet, here we are, 2006, and the Energy 
Department has yet to submit a license application to the NRC.
    While I am encouraged by the Administration's bill 
introduced by request by Senators Inhofe and Domenici to 
provide needed Yucca Mountain reforms, I believe it is even 
more critical that the Federal Government commit itself to the 
implementation of the existing law. In the meanwhile, the 
Administration earlier this year called out the global nuclear 
energy partnership for the long-term reduction of waste through 
reprocessing. It is referred to as GNEP.
    At the same time, the fiscal year 2007 energy and water 
appropriations bill includes a provision requiring 
establishment of interim waste storage sites around the 
country. These provisions require a lot from the NRC in a short 
period of time. This committee has worked very hard to give the 
NRC the resources and reforms needed so that it can efficiently 
review new reactor applications.
    But now, I'm afraid that these waste proposals have the 
potential to move us backwards and could end the nuclear 
renaissance before it even begins. Also, I believe that 
pursuing GNEP and interim storage could take the focus away 
from Yucca Mountain, delaying or ending that important project.
    I question whether DOE can select and submit license 
applications for 30 or so interim storage facilities within 300 
days of enactment of this legislation, as proposed. I also 
question NRC's capability to review these applications in 32 
months. Therefore, I would like to focus the subcommittee's 
attention today on evaluating these different nuclear waste 
provisions and how they will impact the NRC in terms of its 
resources and its capability to carry out other vital programs 
such as the new reactor licensing program and the operating 
reactor inspection and oversight program.
    Finally, I look forward to hearing from our distinguished 
witnesses on this policy today.
    [The prepared statement of Mr. Voinovich follows:]

     Statement of Hon. George V. Voinovich, U.S. Senator from the 
                             State of Ohio

    The hearing will come to order. Good morning and thank you all for 
coming.
    I am pleased to have such a diverse group of witnesses here today 
to share with us their perspective on the Nuclear Regulatory 
Commission's (NRC) regulatory responsibilities and capabilities for 
complying with long- and short-term spent fuel storage programs as well 
as to get their opinions about our country's nuclear waste options.
    Today's hearing continues this committee's strong oversight of the 
NRC, as I believe that strong oversight of the NRC is critical to the 
welfare of the American public. It is the third NRC oversight hearing 
this year, the seventh that I have chaired, and the tenth in a series 
that began in 1998 when Senator Inhofe was chairman of this 
subcommittee.
    The previous oversight hearing held in June focused specifically on 
the NRC's new reactor licensing process to steer the Agency towards 
making its process more efficient and timely. NRC is faced with a huge 
challenge of having to process a tidal wave of new reactor license 
applications that are expected within the next 2 to 3 years, in the 
magnitude that it has not seen in the last 25 years or so. For this 
reason, I have made strong oversight of the NRC a top priority for this 
subcommittee. We need to make sure that the Commission is taking a 
balanced approach as a regulator that ensures the safe operation of the 
existing fleet of nuclear plants without stifling the growth of nuclear 
power.
    A long-term commitment to nuclear energy will make the United 
States more energy independent and energy efficient. This Congress and 
the President demonstrated strong leadership by enacting the Energy 
Policy Act of 2005, which encourages diversity of energy sources, 
including emission-free sources of electricity, such as nuclear energy. 
In order to fully realize the benefits that nuclear power offers, 
however, a solution for the problem of disposal of spent nuclear fuel 
must be found. Since the enactment of the Nuclear Waste Policy Act of 
1982, which requires that a final disposal facility be operational by 
1998, rate payers across America have paid over $27 billion into the 
Nuclear Waste Fund, and continue to pay an additional $750 million each 
year.
    Yet, here we are in year 2006, the Energy Department has yet to 
submit a license application to the NRC. While I am encouraged by the 
Administration's bill introduced by request by Senators Inhofe and 
Domenici to provided needed Yucca Mountain reforms, I believe it is 
even more critical that the Federal Government commit itself to the 
implementation of existing law.
    In the meanwhile, the Administration, earlier this year, rolled out 
the Global Nuclear Energy Partnership (GNEP) for the long-term 
reduction of waste through reprocessing. At the same time, the FY 2007 
Energy and Water Appropriations bill includes a provision requiring 
establishment of interim waste storage sites across the country.
    These provisions require a lot from NRC in a short period of time. 
This committee has worked very hard to give NRC the resources and 
reforms needed so that it can efficiently review new reactor 
applications. But now, I am afraid that these waste proposals have the 
potential to move us backwards and could end the nuclear renaissance 
before it begins. Also, I believe that pursuing GNEP and interim 
storage could take the focus away from Yucca Mountain, delaying or 
ending that important project. I question whether DOE can select and 
submit license applications for 30 or so interim storage facilities 
within 300 days of enactment of the legislation as proposed. Also, I 
question NRC's capability to review these applications in 32 months.
    Therefore, I would like to focus this subcommittee's attention 
today on evaluating how these different nuclear waste provisions will 
impact the NRC in terms of its resources, and its capability to carry 
out other vital programs, such as the new reactor licensing program and 
the operating reactor inspection and oversight program.
    Finally, I look forward to hearing from our distinguished witnesses 
on this critical policy issue.

    Senator Voinovich. I would now like to call Senator Carper 
as my Ranking Member. Senator Jeffords, you can go ahead.

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords. Mr. Chairman, today we are conducting a 
very important hearing. We are trying to get a better sense on 
whether the Nuclear Regulatory Commission will be able to adapt 
to proposed changes in our nuclear waste storage policies.
    This hearing follows our March oversight hearing on the 
Yucca Mountain project. My State of Vermont, along with 39 
other States, relies on nuclear power for a large portion of 
its electricity generation. It is an important part of our 
energy mix. Nonetheless, we must be realistic in dealing with 
the downsides associated with nuclear power. One of those 
downsides is finding a way to manage the waste. Throughout my 
time in Congress, I have continued to work for a comprehensive 
solution to our nuclear waste problem. Back in 1977, I 
introduced a bill in the House calling for a comprehensive 
nuclear waste disposal strategy. I maintained then, as I do 
now, that finding an effective solution to the waste problem is 
critical to the future of nuclear power in this country.
    I have consistently supported the central storage solution 
for nuclear waste. I continue to believe that it is essential 
we find permanent geological storage site if we are to continue 
to produce nuclear power. However, I have also made clear my 
views that Yucca Mountain will not provide this solution and 
the project faces many challenges. I have been very concerned 
that the Yucca site would only take part of the waste, leaving 
some, if not most, of the spent nuclear fuel sitting on the 
banks of rivers, beside our small communities and our large 
population centers. While I support the notion of a central 
storage site, others have proposed new strategies, including 
reprocessing waste, interim storage sites, and additional on-
site storage. Each of these approaches raises serious 
challenges and concerns.
    Both the Governor of Vermont and the Attorney General of my 
State have contacted me in opposition to recent proposals for 
new interim storage.
    In the context of Yucca Mountain, I have strongly opposed 
legislation that would limit the public process, influence 
scientific studies, or rework regulations to fit our efforts to 
build the project. I have the same view for all legislation 
that would manage nuclear waste.
    If Congress cuts corners, we will undermine our efforts to 
develop a sound, permanent, and comprehensive solution to the 
problem of nuclear waste disposal. We will be telling our 
constituents that the important issues have been addressed, 
when they have only been swept under the rug. Americans need to 
know that high-level waste will be stored safely, that we set 
the highest and best standards to protect the environment an 
human health when we build future storage disposal sites.
    We must demand answers about whether change in our nuclear 
storage policy is a wise decision, and are we burdening our 
regulators. Do we have the resources, both in dollars and 
personnel, to handle this task? And we will arrive at a better 
solution to the challenges of disposing our Nation's nuclear 
waste.
    I look forward to hearing from today's witnesses, Mr. 
Chairman.
    [The prepared statement of Senator Jeffords follows:]

      Statement of Hon. James M. Jeffords, U.S. Senator from the 
                            State of Vermont

    Mr. Chairman, today we are conducting a very important hearing. We 
are trying to get a better sense of whether the Nuclear Regulatory 
Commission will be able to adapt to proposed changes in our nuclear 
waste storage policies. This hearing follows our March oversight 
hearing on the Yucca Mountain project.
    My State of Vermont, along with 39 other states, relies on nuclear 
power for a large portion of its electricity generation. It is an 
important part of our energy mix. Nonetheless, we must be realistic in 
dealing with the downsides associated with nuclear power. One of those 
downsides is finding a way to manage the waste.
    Throughout my time in Congress, I have continued to work for a 
comprehensive solution to our nuclear waste problem. Back in 1977, I 
introduced a bill in the House calling for a comprehensive nuclear 
waste disposal strategy. I maintained then, as I do now, that finding 
an effective solution to the waste problem is critical to the future of 
nuclear power in this country.
    I have consistently supported a central storage solution for 
nuclear waste. I continue to believe that it is essential that we find 
a permanent, geologic storage site if we are to continue to produce 
nuclear power.
    However, I have also made clear my view that Yucca Mountain will 
not provide this solution, and the project faces many challenges. I 
have been very concerned that the Yucca site will only take part of the 
waste, leaving some, if not most of the spent nuclear fuel sitting 
along the banks of rivers, beside our small communities and our large 
population centers.
    While I support the notion of a central storage site, others have 
proposed new strategies, including reprocessing waste, interim storage 
sites, and additional on-site storage. Each of those approaches raises 
serious challenges and concerns.
    Both the Governor of Vermont and the Attorney General of my State 
have contacted me in opposition to recent proposals for new interim 
storage. In the context of Yucca Mountain, I have strongly opposed 
legislation that would limit the public process, influence scientific 
studies or rework regulations to fit our efforts to build that project. 
I have the same view for all legislation that would manage nuclear 
waste.
    If Congress cuts corners, we will undermine our efforts to develop 
a sound, permanent and comprehensive solution to the problem of nuclear 
waste disposal. We will be telling our constituents that important 
issues have been addressed, when they have only been swept under the 
rug.
    Americans need to know that high-level waste will be stored safely, 
and that we've set the highest and best standards to protect the 
environment and human health when we build future storage and disposal 
sites. We must demand answers about whether a change in our nuclear 
storage policy is a wise decision.
    Are we burdening our regulators? Do we have the resources, both in 
dollars and personnel, to handle the task? And will we arrive at a 
better solution to the challenges of disposing our nation's nuclear 
waste?
    I look forward to hearing from the witnesses.

    Senator Voinovich. Thank you, Senator Jeffords.
    I would now like to call on Senator Inhofe.

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, I've shortened my opening remarks because 
many of the things you have said are things I was going to say.
    I think, finally, after all the efforts we have made, that 
over the past year we've really accomplished a lot in promoting 
the nuclear renaissance. It was only 7 months ago that the 
chairman at that time, Mr. Diaz, had informed us that he was 
expecting 11 combined construction and operating lines, COLs, 
license applications by 2009. However, today I am happy to hear 
the NRC now anticipates 19. That shows we are moving in the 
right direction.
    I specifically credit this renewed nuclear renaissance to 
key critical nuclear provisions that we in this committee 
crafted, such as NRC reform, security, liability insurance, 
human capital provisions, combined with other nuclear key 
provisions such as risk insurance, production tax credits, and 
loan guarantees. We have been doing all these in anticipation 
of this surge, not really knowing that this surge would come at 
this capacity. I'm very pleased.
    Though I am pleased with the ongoing efforts by both NRC 
and DOE in implementing these critical nuclear provisions, I 
remain extremely concerned about the NRC's capacity, its 
ability to address the increased amount of workload required to 
review the increased number of COLs, while simultaneously 
preparing for Yucca Mountain license applications due from the 
DOE in 2008.
    Mr. Chairman, I know that you have been instrumental in 
assisting the NRC to address and space needs, and I thank you 
for that.
    I was going to talk about the interim thing. This is one of 
the rare times that Senator Jeffords and I agree. I don't think 
we should have the 37 interim sites, either. We just don't have 
the capacity. But the committee may be forced to use its 
resources, energies on that proposal.
    The committee is also concerned about the time line 
associated with the Global Nuclear Energy Partnership, GNEP. 
For instance, my understanding is that the funding for nuclear 
programs at universities we eliminated to support GNEP. In 
addition, some of the DOE's funding for the nuclear power 2010 
program, which is critical to the combined construction and 
operating license application process for new nuclear plants, 
was reduced to further support GNEP. Also, for the successful 
implementation of GNEP our NRC will be required to license fuel 
reprocessing plants, as well as fast reactors. This will 
further strain NRC's limited resources.
    As you know from our committee's earlier hearings on Yucca 
Mountain, I strongly support the storage of nuclear waste at 
Yucca Mountain. How many more thousands of rock samples do we 
need to further reconfirm what is already known about this site 
besides engineered and natural barriers and ability to contain 
radioactive materials for thousands of years.
    We need to open Yucca Mountain as quickly as possible and 
quit talking about it, quit the politics. I understand those 
from the State of Nevada would be opposing it. That is natural. 
I probably would too if this were located in Oklahoma, but it 
is not. This is the place that they have determined, with study 
after study after study, is adequate to take care of these 
needs.
    I don't know of any scientific changes that would deter me 
from still supporting the Yucca Mountain site since our last 
hearing. I have been out there. I have been out there on two 
occasions. I have gone over with the individuals who are 
responsible for coming up with the permanent disposal site. 
I've come to the conclusion that that is the only one that is 
out there. I think we need to keep moving on with it, in 
particular, with the progress that is being made right now, the 
applications.
    So, Mr. Chairman, you have your work cut out for you. I 
don't think there is any--there used to be a lot of controversy 
on the issue of nuclear energy, and you don't hear much of it 
any more. It is cheap. It is plentiful. It is abundant. It will 
handle the crisis that we are faced with now, the energy 
crisis. So I applaud you for your prioritizing this and I want 
to join you in your efforts to make this become a reality.
    We've done a lot with the NRC in the last few years. They 
have cleaned up their opportunity. They've increased their 
capacity. They are going to need our help now, I think, Mr. 
Chairman.
    Thank you.
    [The prepared statement of Senator Inhofe follows:]

       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma

    Today's hearing on the disposal options for commercial nuclear 
waste is a continuation of an earlier hearing that the full committee 
had on March 1, 2006. I thank the Chairman for having this hearing as 
it further reinforces both the committee as well as the subcommittee's 
resolve in wanting to find a national disposal solution for one of our 
country's most significant and reliable sources of energy.
    Over the past year, Congress has accomplished a lot in promoting 
the nuclear renaissance. Mr. Chairman, it was only 7 months ago that 
the then Chairman of the NRC, Mr. Diaz, had informed us that he was 
expecting 11 combined construction and operation license (COLs) 
applications by 2009 for new nuclear plants. However, today I am happy 
to hear that the NRC now anticipates 19 COLs within the next 3 years.
    Mr. Chairman, I specifically credit this renewed nuclear 
renaissance to key critical nuclear provisions that we in this 
committee crafted such as NRC reforms, security, liability insurance, 
and human capital provisions combined with other nuclear key provisions 
such as risk insurance, production tax credits, and loan guarantees.
    Though I am pleased with the ongoing efforts by both the NRC and 
DOE in implementing these critical nuclear provisions, I remain 
extremely concerned about the NRC's ability to address the increase 
amount of workload required to review the increasing number of COLs 
while simultaneously preparing for the Yucca Mountain license 
application due from the DOE in 2008. Mr. Chairman, I know that you 
have been instrumental in assisting the NRC to address increased 
staffing and space needs and I thank you for all of your efforts.
    Given NRC's increased workload over the next 3 years in reactor 
licensing, I am skeptical about new legislation that will require the 
construction of about 37 interim sites to be built around the country 
to store nuclear waste. First, I question whether the DOE can select 
and submit over 30 license applications to the NRC within 300 days of 
enactment of the legislation. Second, the NRC simply cannot review 
these applications in 32 months. In addition to interim storage, the 
committee is also concerned about the timeline associated with the 
Global Nuclear Energy Partnership (GNEP). For instance, it is my 
understanding that funding for nuclear programs at universities were 
eliminated to support GNEP. In addition, some of DOE's funding for the 
Nuclear Power 2010 Program which is critical for the Combined 
Construction and Operation License (COL) application process for new 
nuclear power plants was reduced to further support GNEP. Also, for the 
successful implementation of GNEP, the NRC will be required to license 
fuel reprocessing plants as well as fast reactors. This will further 
strain NRC's limited resources and capabilities.
    As you know from our committee's earlier hearing on Yucca Mountain, 
I strongly support the storage of nuclear waste at Yucca Mountain. How 
many more thousands of rock samples do we need to further re-confirm 
what is already known about this site's engineered and natural barriers 
ability to contain radioactive materials for thousands of years? We 
need to open Yucca Mountain as quickly as possible. Though I find the 
interim storage option intriguing, I am concerned about the impact on 
our resources in shifting the debate from long-term storage to interim 
storage. I believe that this must be fully debated on the Senate floor 
and not attached to an omnibus appropriations bill. Furthermore, I do 
support in principle the future need for GNEP as our country will need 
a closed nuclear fuel cycle. However, I question the timing of this 
elaborate program at the DOE and fear that this program can be a major 
distraction from other programs at the DOE that focuses on the 
immediate construction and operation of commercial nuclear plants. In a 
time of shrinking budgets, I would recommend that the Department 
prioritize its budget to be more in line with the immediate energy 
needs of our country.
    I am not aware of any scientific changes that would deter me from 
still supporting the Yucca Mountain site since our last hearing. It is 
for this reason that I have introduced S. 2610 to help expedite the 
licensing, construction, and operation of Yucca Mountain. I hope that 
my fellow colleagues in this committee as well as in the U.S. Senate 
will support this critical piece of legislation in helping to send the 
clear signal to investors that our country like so many of our 
competitors is serious in resolving our national and global energy 
needs.
    I would like to thank the Chairman again for having this hearing 
and look forward to hearing from our distinguished witnesses.

    Senator Voinovich. Thank you, Senator Inhofe.
    Senator Carper.

 OPENING STATEMENT OF HON. THOMAS R. CARPER, U.S. SENATOR FROM 
                     THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    I think this is the third Nuclear Regulatory Commission 
oversight hearing that this subcommittee has held this year, 
and you and I and our staffs have worked hard to ensure that 
the NRC is effectively fulfilling its oversight mission. As 
Chairman Inhofe said, we have about 19 nuclear power reactors 
that have been proposed to be built. I welcome that. And we 
sought to ensure that the NRC not only has enough funding to do 
this additional work, but also has the human capital and the 
office space that is needed to enable them to do that work.
    In sum, we have sought to ensure that the NRC is prepared 
to manage the burgeoning renaissance of nuclear power in this 
country.
    One of the bigger issues has been alluded to by almost 
everyone who has spoken this morning, and it is one of the 
issues that stifle the interest to date in new nuclear 
powerplants, is how to manage the waste. The Department of 
Energy began seriously contemplating options for long-term 
storage of nuclear waste in the 1970s. That is before a lot of 
people in this room were even born.
    In 2002, the Department recommended Yucca Mountain to be 
the site to house the Nation's nuclear waste. Since then we 
have seen a number of policy and political battles over Yucca 
Mountain. In addition, the Department of Energy continues to 
alter its plans for the site, and at the same time to propose 
alternative methods for managing our nuclear waste.
    At this time, I think there are at least four different 
proposals that have been offered for addressing nuclear waste. 
One of those, of course, is Yucca Mountain. A second is 
reprocessing through some kind of Global Nuclear Energy 
Partnership. A third would be an interim storage proposal. That 
is, I think, part of the energy and water appropriations bill. 
And a fourth is just the status quo, to simply leave things as 
they are.
    We all know it is not the intent of this hearing to argue 
the merits of those particular four options. What we are here 
to discuss is what impacts these four proposals or options 
could have on the Nuclear Regulatory Commission and whether or 
not the Commission is currently prepared to fulfill their 
responsibilities associated with each of these approaches.
    That having been said, we look forward to the testimony of 
the witnesses and the opportunity to have a dialogue with them.
    Thank you.
    Senator Voinovich. Thank you, Senator Carper.
    Our first panel of witnesses are both with the Department 
of Energy: Mr. Edward Sproat, who is the Director, Office of 
Civilian Radioactive Waste Management; Mr. Shane Johnson, who 
is the Principal Deputy Assistant Secretary, Office of Nuclear 
Energy.
    Mr. Sproat and Mr. Johnson, we really appreciate your 
coming here today for this oversight hearing. We are going to 
give each one of you 5 minutes to give your opening statement. 
Of course, your entire written statement is in the record.
    Mr. Sproat, we will begin with you.

STATEMENT OF EDWARD F. SPROAT III, DIRECTOR, OFFICE OF CIVILIAN 
    RADIOACTIVE WASTE MANAGEMENT, U.S. DEPARTMENT OF ENERGY

    Mr. Sproat. Good morning, Mr. Chairman, Senator Carper, 
Senator Jeffords. Thank you very much for the opportunity to 
appear before you this morning to talk about nuclear waste and, 
in particular, Yucca Mountain, which is my area of 
responsibility in the Department of Energy.
    I have been in my job now for approximately 12 weeks and 
have gotten in pretty deep as to what is going on in the 
Department with Yucca Mountain, and I am prepared to talk to 
you and answer whatever questions you may have this morning 
regarding that program.
    I would like to take just a couple of minutes to begin to 
talk about Senate bill 2589, which was introduced by Senator 
Inhofe and Senator Domenici, and on behalf of the President, 
the Secretary, and myself, I would like to express our 
appreciation for introduction of that bill.
    I appeared in the House about 6 or 7 weeks ago and 
announced a new schedule for Yucca Mountain which included the 
major milestones of submittal of a license application to the 
NRC by June 2008 and the best achievable schedule of opening a 
repository by March 2017. I received some criticism for that 
schedule, as a number of people said, ``well, we don't think 
that is realistic.''
    I just want to make very clear to this committee that that 
is a best achievable schedule. I didn't say it was the most 
probable schedule. There is a difference, because there are a 
number of issues which are currently outside of the control of 
the Department of Energy that need to be addressed in order for 
us to meet that best achievable schedule of March 2017. Senate 
bill 2589 addresses the vast majority of those issues, which we 
feel we need to address to be able to make that best achievable 
date.
    So if we don't have that legislation or the key elements of 
that legislation to help us, we won't be able to meet that 
March 2017 date, and I would just like to speak very, very 
briefly and very quickly about some of the key issues in there, 
because there is a lot of misunderstanding around some of them 
in the Senate, in the House, and in the public.
    The very first issue is around the funding for Yucca 
Mountain and the use of the Nuclear Waste Fund. I think you are 
all aware there is a lot of money in that Nuclear Waste Fund 
that has been paid for by the ratepayers of this country. What 
we are asking for here is that the annual revenues coming into 
the Federal Government for the waste fund be counted as 
discretionary, and therefore, the Appropriations Committees can 
allocate those incoming receipts to Yucca Mountain, appropriate 
them for Yucca Mountain without counting against the budget 
caps of the Appropriations Committees.
    We are not asking for removal of Congressional oversight. 
We are not asking for removal of Congressional appropriations. 
We are just asking that the annual receipts be reclassified as 
discretionary receipts so that the Appropriation Committees in 
both Houses are able to allocate those receipts without coming 
against their budget caps.
    The second issue we have is we are asking for withdrawal of 
land on the Nevada Test Site around the Yucca Mountain 
repository, itself. What we are asking for there is to give the 
Department and the Secretary of Energy the ability to have 
permanent control over that land and decide how that land is to 
be used. I need to have that ability to exclude other public 
uses other than for nuclear waste disposal in order to get a 
license from the NRC. We have to show that we have permanent 
control of that land to the NRC before we can get an operating 
license for Yucca Mountain.
    The third issue--and this goes directly at the issue that 
Senator Jeffords brought up about do we already have Yucca 
Mountain filled up, will it have enough capacity to handle 
spent nuclear waste from the country, which is a very 
legitimate issue, and it is an issue that directly impacts the 
future of nuclear energy in this country.
    Currently, in the Nuclear Waste Policy Act there is an 
administrative limit placed by the Congress on Yucca Mountain 
of 70,000 metric tons. We will have, with the existing fleet of 
plants and with the license extensions that those plants have 
gotten, we will have basically filled Yucca Mountain with the 
existing fleet of plants within the next 3 to 5 years, have 
that full 70,000 metric ton limit committed.
    In addition, the 10 percent of the 70,000 MTHM that has 
been allocated to Defense waste materials, including spent 
Naval nuclear fuel, will occupy approximately one-third of the 
volume of the respository.
    So it is very important. What we are asking for in this 
legislation is that that administrative cap of 70,000 metric 
tons be lifted and allow us to present a technical case to the 
NRC as part of our licensing process as to what the maximum 
licensable capacity limit of Yucca Mountain should be, and let 
the NRC determine that as part of the licensing process. So we 
are asking permission to allow the NRC and the Department of 
Energy to make a technical decision as part of the licensing 
process for Yucca Mountain as to what that upper limit should 
be.
    We have already done an environmental impact statement for 
Yucca Mountain which considers and analyzes up to 120,000 
metric tons to be stored there. So this is an important issue, 
as Senator Jeffords has pointed out.
    The fourth issue which has generated some interest, 
particularly among folks in the western States, is the issue of 
water. What we are asking for is the Senate to declare 
basically the Yucca Mountain project is in the public interest. 
The reason we are doing that, as of right now, the State 
Legislature in Nevada has declared this project as not in the 
public interest, and therefore the State water engineer in 
Nevada is not allowed to give us a water permit.
    So without a water permit, it is going to be very hard to 
build and operate Yucca Mountain. We are not asking to bypass 
the State's rights; what we are asking for is to just have a 
hearing and be able to go in front of the State water engineer 
and make a technical case as to the water we need for the 
period we need it.
    The fifth area is on waste confidence, which is a major 
issue for a lot of folks. It directly impacts our future 
ability to build new nuclear plants. Right now the NRC has a 
waste confidence rule that says they believe that there is a 
high confidence that the Federal Government will have a place 
to put its spent nuclear fuel by the year 2025. We are asking 
basically Congress to say we believe also that we will have a 
long-term plan and a policy in this country to handle nuclear 
waste, and therefore, the NRC no longer has to consider 2025 as 
a hard date, and basically to address the issue that way.
    The next area is transportation. How do we get the waste to 
the Mountain? There has been a lot of misunderstanding around 
this, also. All we are trying to do here is to clarify that the 
Department of Energy has the right and has the authorization to 
transport nuclear waste under the Atomic Energy Act, which we 
already do, but that, in cases where there may be a State or a 
county or locality that is obstinate in preventing us from 
shipping on through a preferred route that has been planned and 
agreed upon through the various planning processes with local 
involvement, that we are able to use a preemption rule with the 
Department of Transportation: that basically we can appeal to 
the Department of Transportation to preempt local objections on 
a specific route. We are not planning on changing any of the 
way we participate or plan these transportation routes with the 
public as part of this legislation.
    Senator Voinovich. Mr. Sproat, your time is up.
    Mr. Sproat. Thank you.
    In summary, let me just say, Senator, I appreciate the 
opportunity to talk about this, and both the President, the 
Secretary, and I strongly urge respectfully that the Senate and 
the Congress consider this legislation.
    Senator Voinovich. Thank you very much.
    Mr. Johnson.

   STATEMENT OF SHANE R. JOHNSON, PRINCIPAL DEPUTY ASSISTANT 
 SECRETARY, OFFICE OF NUCLEAR ENERGY, U.S. DEPARTMENT OF ENERGY

    Mr. Johnson. Mr. Chairman, Senator Carper, Senator 
Jeffords, it is my pleasure to be here this morning to discuss 
the Department's activities associated with building new 
nuclear capacity in the United States. As a new generation of 
nuclear powerplants and advanced fuel facilities is designed, 
licensed, and constructed in the United States, it is certain 
that the Department's joint Government-industry initiatives 
will have near-term, mid-term, and long-term implications for 
the Nuclear Regulatory Commission.
    Through our Nuclear Power 2010 program and the nuclear-
related provisions of the Energy Policy Act of 2005, Government 
and industry are working together to address the regulatory and 
financial impediments facing the first purchasers of new 
advanced light water reactors. The Department is currently 
sponsoring cooperative projects for preparation of Early Site 
Permits for three commercial nuclear plant sites. The three ESP 
applications are currently in various stages of NRC review, and 
licensing decisions are expected by the end of 2007.
    We have also established cost-shared demonstration projects 
with two power-company-led consortia to obtain construction and 
operating licenses (COLs) from the NRC. Both consortia are on 
track to submit COL applications to the NRC in late calendar 
year 2007. Industry's expectation is that the NRC will issue 
the licenses by the end of 2010, making it possible that the 
utility decision to build a new plant could be announced as 
early as 2008, construction starting in 2010, and a new plant 
operational by 2014.
    The progress to date in our Nuclear Power 2010 and in 
implementing the nuclear provisions of the Energy Policy Act 
has already encouraged 12 companies to publicly announce their 
intent to apply for licenses for nearly 30 reactors. In 
addition to the near-term deployment of new nuclear 
powerplants, the Department is addressing the fundamental R&D 
issues of next-generation nuclear energy concepts. We are 
currently supporting R&D for a prototype high-temperature 
reactor capable of producing both electricity and hydrogen.
    The expectations for the development, design, and 
demonstration of this new facility, called the Next Generation 
Nuclear Plant, are also outlined in the Energy Policy Act.
    As directed by the Energy Policy Act, the Department has 
begun working in earnest with the NRC to jointly develop a 
licensing strategy for this new technology.
    Finally, we are implementing the Global Nuclear Energy 
Partnership, or GNEP, an initiative announced earlier this year 
by the Department as part of the President's Advanced Energy 
Initiative. GNEP is a comprehensive strategy to lay the 
foundation for expanded use of nuclear energy in the United 
States and the world by demonstrating and deploying new 
technologies that recycle nuclear fuel, significantly reduce 
waste, and advance nuclear nonproliferation objectives.
    As part of this initiative, we are pursuing the development 
of an integrated spent fuel recycling facility and the 
development of a fast reactor capable of consuming those usable 
products from spent fuel while producing electricity.
    DOE expects to work closely with the NRC in developing the 
regulatory framework for licensing these advanced facilities. 
As I described in my testimony, the Department has several 
ambitious and concurrent initiatives underway which pave the 
way for the resurgence of nuclear power in the United States 
and around the world. Each of these initiatives carries its own 
set of licensing issues and requirements, albeit it on varying 
implementation schedules. NRC's ability to fulfill their 
licensing role in a timely and effective manner is a critical 
requirement for the successful resurgence of nuclear power in 
the United States.
    Thank you.
    Senator Voinovich. Thank you very much.
    According to the Nuclear Waste Policy Act of 1982, the 
Yucca Mountain site should have been licensed and operational 
since 1998. You are giving us a number of March 2017. That is 
almost 20 years later. But we are told that the Department of 
Energy 2008 to submit that license application, and how 
confident are you that we are going to be able to do that?
    Mr. Sproat. I'm very confident we can do that. Let me just 
say we are not targeting that date. The date is on or before 
Monday, June 30, 2008. I'm very clear with that. We are putting 
in place a very specific, very aggressive project management 
process and team. We are taking a different approach in doing 
the license application than has been done before. I am highly 
confident that we will have a high-quality, docketable license 
application into the NRC no later than June 30, 2008.
    Senator Voinovich. As you know, the Senate Energy and Water 
Development Appropriations Subcommittee unanimously reported 
out of committee the spending bill of 2007, which calls for DOE 
to approve over 30 interim storage sites in States or regional 
compacts that are in close proximity to commercial sites for a 
period up to 25 years. Given the Department's track record on 
the Yucca Mountain application, do you believe that DOE is 
capable of preparing and submitting licensing applications to 
the NRC in the 300 days allotted time?
    Mr. Sproat. Well, being new to the Department, I can't 
speak about past track record. What I can tell you is, based on 
the work I have on my plate to get the Yucca Mountain license 
application in and to get it licensed, and given the resources 
I have to do that and the team I am trying to build to do that, 
any additional work for additional interim storage in that time 
period would be highly distracting and very difficult to 
perform to meet that schedule.
    Senator Voinovich. It is very difficult to perform?
    Mr. Sproat. Very difficult to perform.
    Senator Voinovich. Distracting, yes, but difficult to 
perform.
    Mr. Sproat. Very difficult to perform to that kind of a 
schedule. I have, in fact, earlier in my career been involved 
in licensing, and construction of an interim spent fuel storage 
facility at a nuclear powerplant, so I know about how long it 
takes, how much it costs, and just at a plant that you already 
have a site licensed for between the time you decide you are 
going to undertake this, do the studies, do the design, do the 
licensing, do the construction, you are talking probably in the 
neighborhood of 4 to 5 years. If you are doing it away from 
reactor, the siting process, the regulatory process, the 
environmental impact process will extend that timeframe 
significantly.
    Senator Voinovich. As Governor, we contemplated siting a 
low-level radioactive waste facility, and I understand it is 
not an easy process. This is away from where it is now being 
stored to some other place, and the whole NIMBY problem and the 
rest of it just gets to be very, very difficult.
    Mr. Sproat. The actual construction time is relatively 
short compared to the amount of time it takes for licensing and 
studies and litigation before you can actually start 
construction.
    Senator Voinovich. In terms of the interim storage 
provision, how would DOE fund it? Would the funding come from 
the Nuclear Waste Fund or from taxpayers?
    Mr. Sproat. I don't believe that is clear in the 
legislation, and I don't believe DOE has a position on that 
issue at this time.
    Senator Voinovich. We've collected, what, $27 billion, and 
we are collecting another $750 million every year.
    Mr. Sproat. That is correct.
    Senator Voinovich. How much is left in that storage fund? 
Does anyone know?
    Mr. Sproat. We have spent approximately $9 billion over the 
life of the program. The current balance is, I believe, around 
$17 billion, about $18 billion.
    Senator Voinovich. Well, is the money there or has it been 
spent and borrowed?
    Mr. Sproat. No. I have been assured by my staff we are 
holding Government paper in a file drawer that is a laddered 
approach, you know, bond approach in terms of that, so we 
believe we are holding good Government paper to back up that 
investment.
    Senator Voinovich. Will it require some appropriations from 
Congress to pay for it?
    Mr. Sproat. Well, let me try and answer the question. We 
are not anticipating appropriations from Congress to pay for 
Yucca Mountain. Is your question more about interim storage or 
Yucca?
    Senator Voinovich. Well, basically, is the money like so 
many other trust funds that we have where there are IOUs and 
promises to pay but the money has been spent, and when it comes 
time to start construction you have to pay back that money. My 
question is: where does the money come from? It has not been 
put into some special investment fund, has it? Or has it?
    Mr. Sproat. We are holding Government investments in our 
laddered account that we would intend to draw upon when we need 
to draw down.
    Senator Voinovich. I'd like to have a memorandum on that 
explaining what it is, how much is there, what kind of debt is 
there.
    Mr. Sproat. Absolutely.
    Senator Voinovich. Because I have been led to believe that 
it will be like so many other trust funds----
    Mr. Sproat. I will be glad to----
    Senator Voinovich [continuing]. That we have to repay them.
    Mr. Sproat. I will be glad to take that question for the 
record and give you a very detailed explanation of how those 
investments are set up and laddered in that fund.
    Senator Voinovich. Good.
    [The referenced information follows on page 49.]
    Senator Voinovich. Senator Carper.
    Senator Carper. Thanks.
    I would like to come back to the issue of interim storage 
in the Nation's spent fuel management program. I believe it is 
in the energy and water appropriations bill, the idea of this 
interim storage locations across the country. Could both of you 
comment on that just briefly, what's good about it, what's bad 
about it, problems, attributes.
    Mr. Sproat. Let me try and talk about why would we want to 
do interim storage, from a Government perspective. I believe 
there are two primary reasons. One is to address the issue of 
waste confidence, on being able to build new nuclear plants and 
extend the licenses of the existing fleet, and the second is to 
reduce the Government financial liability associated with DOE's 
non-performance on the existing standard contracts, because we 
do clearly have liability for non-performance on a number of 
contracts.
    They are the really two key drivers for interim storage. So 
however we set up an interim storage scheme, whether it is one 
site, couple sites, multiple sites, we need to make sure that 
we are addressing both of those issues: that waste confidence 
has been adequately addressed through that scheme and that the 
total cost to the U.S. taxpayer as a result of the cost of 
setting up that interim storage, getting it licensed, and the 
timeframe it is going to take to get it operational compared to 
the timeframe it is going to take to get Yucca Mountain 
operational, that it is a net win for the taxpayers of the 
United States.
    Senator Carper. How can we make it a net win for the 
taxpayers of Oklahoma, where we are going to put all these--no, 
we are not going to do that--or Ohio or Delaware or Vermont? 
How can we make it a winner for those folks? I don't think 
we've ever convinced the people of Nevada that this is a winner 
for them, and if we had done a better job of that we might not 
be looking at a 2017 date.
    Mr. Sproat. That may be the case, but I certainly wouldn't 
put blame on the folks in Nevada as being the primary reason 
why this has been taking so long. There are other issues around 
the long-term management of the program, the approach it has 
taken, that I say probably bear a lot more responsibility than 
the folks in Nevada.
    Senator Carper. Senator Voinovich, a former Governor, 
talked about the low level radioactive waste. I have seen that 
movie, too, in Delaware and Pennsylvania as we have tried to 
come up with a site just for hospital waste and stuff like 
that. How do we make, with respect to interim storage, whether 
it is whatever State or States it is going to be in, how do we 
make it a winner for those States?
    Mr. Sproat. One of the proposals I know----
    Senator Carper. Excuse me. I don't envision us having a 
competition among the States that they can be the first or 
second or third to be the site chosen, but at least we want 
them to feel like there's something in it for them.
    Mr. Sproat. You are absolutely right, Senator. I think what 
you see happening with PFS out in Utah is an example of people 
following the rules, doing everything right, but basically the 
State has said we don't want that here, and it is still stuck. 
There has been some discussion and it has some merit to see who 
is out there, if a package of financial incentives combined and 
linked to the GNEP initiative could be enough to spur local 
interest in being willing to host what we would call in-process 
storage; in other words, a place where the fuel would sit. It 
is kind of like an inbox to the GNEP process.
    Senator Carper. I want to talk about GNEP, but before we do 
just a quick question on some of the Indian tribes, Indian 
nations and the roles that they are seeking to play in this 
regard. Just a quick comment on that.
    Mr. Sproat. Well, the only one I am aware of is----
    Senator Carper. Utah?
    Mr. Sproat [continuing]. in Utah, where PFS is sited, is 
proposed to be sited. That is on tribal land, and so the tribe 
had decided that the business deal associated with that was 
good. Unfortunately, where that stands right now is the 
consortium, the PFS consortium, has received a license from the 
NRC to go build that facility, but it is conditioned on a 
number of issues associated with the ability on the use of the 
land from a Federal Government standpoint and the 
transportation issues coming in, and there is resistance at the 
State level around some of those issues. It is currently being 
discussed and it may or may not be in litigation. I'm not sure. 
So that is the only specific Indian tribal involvement with 
spent nuclear fuel that I am aware of at this point.
    Senator Carper. Thank you.
    Gentlemen, a few words on GNEP. Talk to us about how it 
would work and what its status is so that a layman could 
understand it.
    Mr. Johnson. So that a layman can understand?
    Senator Carper. Yes.
    Mr. Johnson. GNEP is a comprehensive strategy that 
envisions an expansion of nuclear power not only in the United 
States but around the globe, and in supporting this expansion 
of nuclear power worldwide-GNEP seeks to establish mechanisms 
by which we can address the two issues that have plagued 
commercial nuclear power since its inception; what do you do 
with the nuclear waste and how do you control the nuclear 
materials from a nonproliferation objective such that you can 
provide the benefits of nuclear power to the globe in a safe 
and secure manner.
    So the GNEP program envisions both the technology 
development activity with developing advanced recycle 
technologies that do not result in separated plutonium to 
address the nonproliferation concerns associated with that 
particular nuclear material, burning those elements of the 
spent fuel that have some useful value in advanced reactors to 
generate electricity. It also envisions a fuel leasing 
framework where fuel supply countries would make available fuel 
to countries for their plants, enabling those countries to have 
the benefit of nuclear power without that country having to 
develop and deploy fuel cycle technology such as enrichment 
facilities or spent fuel reprocessing facilities.
    So really the Global Nuclear Energy Partnership is looking 
at bringing the benefit of commercial nuclear power to the 
countries of the world so that they have the electricity, safe, 
reliable, low cost, but we would cap the numbers of countries 
that have enrichment technologies and process, as well as 
recycling facilities.
    That, in a nutshell, is what the Global Nuclear Energy 
Partnership is.
    Senator Carper. All right.
    I understand the wife of Albert Einstein was once asked, 
Mr. Chairman, do you understand Einstein's theory of 
relativity? She said, ``I understand the words, but not the 
sentences.'' I understood most of the words, some of the 
sentences. It is obviously one I need to go to school on, but I 
think it has potential and promise and I look forward to 
learning more. Thank you.
    Mr. Johnson. Thank you, sir.
    Senator Carper. I'm going to run over to the floor, Mr. 
Chairman, for a few minutes. I will be right back.
    Senator Voinovich. Senator Jeffords.
    Senator Jeffords. Mr. Chairman, before I begin my 
questions, I would like to ask consent for two items. First, 
the Democratic Leader, Senator Reid, would like to submit a 
statement for the record. I assume that will be appropriate.
    Second, I would like to submit letters I have received from 
the Governor of Vermont and Vermont's Attorney General on 
matters that will be discussed in this hearing.
    Senator Voinovich. Without objection.
    [The referenced documents follow on page 36].
    Senator Jeffords. Mr. Sproat, you stated that DOE will 
submit a Yucca Mountain license application to NRC in 2017 only 
if Congress passes legislation to eliminate impediments. We 
have a law, the Nuclear Waste Policy Act, that DOE was supposed 
to take waste beginning in 1998. In order to keep to the 2017 
date, how long do you assume it would take for Congress to act? 
Are you giving us until the end of September, the whole next 
Congress, or just how long do we have?
    Mr. Sproat. I probably wasn't clear in my opening 
statement, Senator. Just to be clear, I said that we would be 
submitting the license application by June 2008 and the best 
achievable date for opening Yucca Mountain, making it actually 
start operating, is March 2017, so I just wanted to be clear 
about those two dates. It is license application by mid-2008 
and best achievable schedule to open would be March 2017.
    I don't need this legislation that we gave you in order to 
submit that license application. I have all the authority I 
need as long as the appropriations are still set by the 
Congress to adequately fund the program. I will submit that 
license application no later than June 2008.
    But I won't be able to get a license from the NRC to 
actually build the repository unless some of those key issues 
that I spoke about in my opening statement are addressed 
through legislation.
    Senator Jeffords. Thank you. Mr. Sproat, one reason you 
give for DOE's interest in legislation is that the Department 
wants to assume responsibility for nuclear waste transport. 
What are the DOE's plans for implementing a dedicated train 
program for rail shipment of nuclear waste for the roughly one-
third of reactors in the United States that do not have rail 
access?
    Mr. Sproat. Very good question, Senator. The Department of 
Energy has a responsibility as part of the Yucca Mountain 
program to accept the waste, transport it across the country, 
and get it to Yucca Mountain. That is clear. Our preliminary 
studies have indicated the preferred way of doing that is via 
rail and doing it with dedicated trains. In other words, so we 
have a dedicated fuel train. From a security standpoint and a 
transportation and logistics standpoint, that makes a lot of 
sense.
    There are certain plants that have either had rail spurs to 
them when they were built which are no longer in service, which 
may need to be enhanced, and there are other plants that have 
never had rail spurs but have either road access or waterway 
access.
    One of the areas that has suffered in this program due to 
funding shortfalls over the past 3 to 4 or 5 years is 
specifically transportation planning. When I came in I set four 
strategic objectives for this program. No. 4 was moving forward 
intently with the transportation planning process. So, to be 
able to answer your specific question or so what are you going 
to do with these plants that don't have rail spurs, additional 
transportation planning is required before I can really answer 
that; however, I would point out all of these plants were built 
with very heavy components in them, whether they are reactor 
vessels or steam generators or whatever, and they were either 
brought in by road, by rail, or by waterway. We would use 
probably the similar routes to get the spent fuel out. But 
until we do the detailed transportation planning that has been 
lacking so far, I can't answer your specific question on a 
specific plant basis.
    Senator Jeffords. Thank you.
    Mr. Johnson, I want to ask you about the waste produced by 
the Administration's proposed nuclear waste reprocessing 
program. Do we currently have appropriate storage and 
environmental regulations that would manage the type of nuclear 
waste produced by a large-scale reprocessing program?
    Mr. Johnson. As we envision the program, we would produce 
waste products that are consistent with the existing 
environmental regulations and laws, so the product that is 
engineered would meet the requirements that are on the books 
today.
    Senator Jeffords. Mr. Johnson, some have suggested that 
reprocessing would eliminate the need for Yucca Mountain. Does 
the Department share that view?
    Mr. Johnson. No, sir. Yucca Mountain is required under any 
fuel cycle scenario, whether we maintain the current fuel cycle 
or we close the fuel cycle through recycling spent fuel and the 
use of fast reactors or thermal reactors, but a geologic 
repository is required for any scenario.
    Mr. Sproat. If I could just add to that, Senator, just to 
give you a very specific reason why, as I said in my opening 
statement, one-third of the Yucca Mountain capacity, that 
70,000 metric ton current capacity, will be taken up by high-
level Defense waste and Naval spent nuclear fuel. That is not 
recyclable material and it has to go somewhere and it is 
sitting around different places, primarily in Idaho and 
Savannah River in Georgia and a few other places. It needs to 
go into Yucca Mountain. We need a deep geological repository.
    Senator Jeffords. Thank you.
    Thank you, Mr. Chairman.
    Senator Voinovich. Thank you both for your testimony today.
    We are going to have a vote at 11 o'clock, so I am going to 
shorten the question period today, but I have several more 
questions that I am going to submit for the record and would 
appreciate your getting back to me with the answers to those 
questions.
    Senator Voinovich. Thank you very much for being here. I 
was impressed, Mr. Sproat, with your commitment in terms of the 
time line.
    Mr. Sproat. We will make it.
    Senator Voinovich. Thank you.
    Mr. Johnson. Thank you, sir.
    Senator Voinovich. Mr. Reyes, welcome back. It is nice to 
see you.
    Mr. Reyes is the Executive Director for operations of the 
Nuclear Regulatory Commission.
    Mr. Reyes, we look forward to your testimony.

STATEMENT OF LUIS REYES, EXECUTIVE DIRECTOR OF OPERATIONS, U.S. 
                 NUCLEAR REGULATORY COMMISSION

    Mr. Reyes. Mr. Chairman and members of the committee, it is 
a pleasure to appear before you today on behalf of the Nuclear 
Regulatory Commission to discuss our capability to regulate the 
storage and disposal of spent nuclear fuel.
    Specifically, I plan to address some of the national spent 
fuel management strategies embodied in the various legislative 
proposals currently under consideration by Congress. I also 
plan to discuss some of the implications of the Global Nuclear 
Energy Partnership.
    Since I plan to summarize my testimony, I will ask that my 
full statement be entered into the hearing record, including an 
update to page No. 6.
    Senator Voinovich. You can be assured of that.
    Mr. Reyes. It is important to make clear at the outset 
that, because of our role in the regulation of spent nuclear 
fuel and our potential role in considering an application for a 
high-level radioactive waste repository at Yucca Mountain, NV, 
the Commission has not taken a position on most of the 
provisions in these legislative proposals; therefore, I would 
like to focus on the impact certain of the proposals will have 
on the NRC.
    We have reviewed the committee's bill, S. 2610, and note 
that some provisions in the bill could affect the timing of our 
review of a Department of Energy application for an 
authorization to receive and possess spent nuclear fuel and 
high-level radioactive waste at Yucca Mountain. Specifically, 
the committee's bill will require us to reach a final decision 
and receipt and possession within 1 year with the possibility 
of a 6-month extension. Such a requirement would not allow us 
enough time to complete both our safety review and the required 
adjudicatory proceeding in one year.
    We have also reviewed the language contained in the Senate 
appropriations bill and believe that our existing regulatory 
infrastructure could accommodate alternative approaches to 
storing spent nuclear fuel. We believe that we may be able to 
review and license concurrently the large number of new 
facilities anticipated in the bill; however, in order to do so 
we will need sufficient funding, the receipt of complete, high-
quality license applications, and considerably more time to 
review and adjudicate the applications.
    The changes to our national spent fuel management strategy 
that are being considered in the various bills involve shipping 
spent fuel. Provisions in the bills may affect the 
transportation roles of the Department of Energy and the 
Department of Transportation, but do not appear to affect our 
role with respect to certifying casks as specified in the 
Nuclear Waste Policy Act.
    The NRC believes that the existing transportation 
regulatory infrastructure can accommodate the various 
legislative actions being considered; however, as with the 
other topics addressed in its testimony, our ability to 
complete this work will depend upon sufficient appropriations 
and the submittal of complete, high-quality applications.
    We have been meeting regularly with the Department of 
Energy to keep informed and discern our role in the Global 
Nuclear Energy Partnership program as it unfolds. If we are to 
have licensing responsibilities in both the spent fuel 
separations, fuel fabrication facility, according to the 
Department schedules, then we must make changes now to ensure 
that our regulations and guidance documents provide appropriate 
stability and predictability in our regulatory reviews.
    To facilitate the technical review and ensure a timely 
licensing process for new technologies, we will need to revise 
existing regulations or develop new regulations and associated 
guidance documents. Also, we will need to begin recruiting for 
new employees while developing expertise among existing staff 
in separations and advanced reactor technologies.
    In conclusion, the Commission understands the importance of 
addressing the storage, transportation, and disposal of high-
level radioactive waste in a systematic and integrated manner 
that is safe, timely, and efficient. We urge Congress to assure 
that sufficient appropriations be made available to adequately 
fund regulatory infrastructure activities and increase staffing 
prior to the receipt of new license applications.
    Provided that we receive sufficient resources, staffing 
levels are maintained, and appropriate time is given to the 
Agency to conduct its technical reviews and adjudications, we 
believe we can reach decisions on the relevant applications in 
a timely fashion, assuming high-quality license applications 
are received.
    Finally, I would like to thank you, Chairman Voinovich and 
Senator Carper, for your support and the assistance of your 
staff. In addition, I would like to thank Chairman Inhofe and 
Senator Jeffords for their assistance.
    As this might be our final hearing this year with the 
committee, I would like to take the opportunity to wish Senator 
Jeffords many years of enjoying his retirement. It has been a 
pleasure to work with him and your staff over the years, and we 
wish you well.
    Thank you, sir.
    Senator Voinovich. Thank you, Mr. Reyes.
    How many of the COLs--Senator Inhofe referred to 19--do you 
think you are going to be getting in the next 2 to 3 years?
    Mr. Reyes. We think that all 19 COL applications that 
include more than 28 nuclear units are coming in in the years 
2007 through 2009, and we are prepared to receive those 
applications.
    Senator Voinovich. So the applications would be, at this 
stage of the game, 19?
    Mr. Reyes. Nineteen combined operating licenses for more 
than 28 nuclear reactors.
    Senator Voinovich. Twenty-eight facilities.
    The question that I have is: where are you in terms of 
hiring the people that you need to get the job done? And, No. 
2, share with us the status of the issue of having the space 
for these people to operate.
    Mr. Reyes. The Agency has, as you know, a very experienced 
staff, and we were at a goal to have a net gain of 200 
employees this fiscal year. I am glad to report that we have 
exceeded that. We have a net gain of over 200 employees this 
year. But we do have to repeat that for the upcoming years. We 
do have a very aggressive recruitment schedule already started 
for the next year. We are going to a lot of universities.
    Senator Voinovich. Next year or the next years?
    Mr. Reyes. Correct. Several years. Several years. We are 
going to repeat the----
    Senator Voinovich. Do you have the specific number of 
years?
    Mr. Reyes. Yes. For the next 3 years, we are planning on 
trying to net more than 200 employees every year for the next 3 
years. Now, our recruitment schedule is very aggressive in 
terms of universities. In fact, today we happen to have our 
recruiting team at Ohio State University. We go for the cream 
of the crop.
    Senator Voinovich. I will get on the phone and call them. 
We've talked with those people about keeping the program open 
and have also talked with the University of Cincinnati that we 
are going to close down their program, and they have agreed now 
that they are going to stay with it. But for the people from 
the Department of Energy, the proposal to cut $27 million from 
their budget for these programs, that seems to me ridiculous at 
this stage of the game and I am hopeful that we can get that 
money restored to that. I think I would like you to comment 
about that, if you would.
    Mr. Reyes. We believe that funding of the university is 
critical. Our success this year in recruiting is not as 
difficult as we foresee in the future. This announcement that 
we discussed about 19 combined operating licenses and decisions 
that are being made at the board of directors as we speak that 
are not public yet are creating a need for a large workforce, 
not only on the utilities who will build and operate 
facilities, the license preparation, the construction 
organizations that are going to do that, so we see a large 
demand in the future and a large competition for the same 
resources.
    You had asked me about space. The picture with space is not 
as good as recruiting. We are filling our campus at White 
Flint. We have secure interim space to move some of our 
employees off campus. We are converting conference rooms and 
training rooms into offices, and we are working to see if we 
can get some centralized, permanent location.
    If you remember the committee report after Three Mile 
Island, it criticized the Agency for having the employees 
located in many places and not having good communications. We 
want to learn from the past. We do not want our staff spread 
out through many facilities through the suburbs of Maryland, so 
we are working very hard to have a consolidated location.
    Senator Voinovich. You can be assured that I am going to do 
everything in my power to make sure you get that space.
    Mr. Reyes. Thank you, sir.
    Senator Voinovich. Chairman Klein has been quoted as 
stating that the Commission can license interim facilities for 
the storage of spent fuel from new and existing reactors, but 
noted that a Congressional proposal to open such sites in all 
States with nuclear powerplants could stretch the Commission's 
resources. The question I have is one that I have asked before: 
can the NRC practically review over 30 license applications in 
32 months? Can you find the needed personnel? Do you have any 
idea of how many more, in addition to what we've already talked 
about, just to take care of the COL's you'd have to have in 
order to do this? Have you looked at that impact it would have?
    Mr. Reyes. Yes. Let me give you, if we have 30-some-odd 
facilities to store interim storage of spent nuclear fuel away 
from reactors, and you assume those 30-some-odd applications 
come in at the same time for what would be a 30- to 32-month 
review, the total program cost for that scenario is $300 
million and over 200 employees. Now, there are other 
combinations of the scenario that are not as high, and we will 
have to wait and see what kind of facilities are being 
proposed. But, in terms of worst case scenario, all away from 
reactors, all coming at the same time, you are talking a total 
program cost of $300 million and over 200 employees. That would 
be a significant----
    Senator Voinovich. Is that 200 above the 200----
    Mr. Reyes. Correct. This is just for this effort, for the 
30-some-odd installations away from reactors to restore the 
interim storage of spent fuel waste, spent fuel. So there's no 
appropriations. We don't have any budget for those activities, 
so that would be a significant impact to all of our other 
activities if the situation would remain that way.
    Senator Voinovich. Well, the question I have is, what, 90 
percent of your budget comes from the industry, itself?
    Mr. Reyes. Correct.
    Senator Voinovich. Where would the money come from for 
this? From that same group of people or--have any of you 
thought about that?
    Mr. Reyes. I think no, we haven't, because we don't know 
the scenario yet, but it will be a big impact. Whoever pays for 
it, it is going to be a significant amount of money.
    Senator Voinovich. Either for the taxpayers or for the----
    Mr. Reyes. Either way, it is a significant amount of money.
    Senator Voinovich. We will find out from the next two 
witnesses how enthusiastic they are about it.
    The next question is the GNEP program. Again, does the NRC 
have any existing in-house expertise licensing reprocessing 
facilities and fast reactors as is going to be required under 
GNEP?
    Mr. Reyes. We have a very limited number of employees that 
have experience in either fast reactors or reprocessing 
technology, so we would have to ramp up not only the number of 
employees but train them and acquire that knowledge.
    Senator Voinovich. So, again, it would take some more 
personnel in order to handle that situation?
    Mr. Reyes. Yes, sir.
    Senator Voinovich. The estimated cost of that is $13 
billion, yes, $13 billion. Where would that money come from?
    Mr. Reyes. You mean for the GNEP? I think you are going to 
have to ask another group, because we would--the cost we can 
give you is the review process that we will have to go through 
in reviewing the facilities for GNEP. We don't know yet what 
that profile looks like in terms of how many facilities and 
what kind, so we do not have an estimate for that.
    Senator Voinovich. Okay. That is probably a DOE question.
    Mr. Reyes. Yes, sir.
    Senator Voinovich. I would like to have you folks look at 
this thing and come back in writing about specifically the 
numbers that you would have to have and talk about the 
budgetary process and so forth so we get a full--so that we 
comprehend just what we are talking about here.
    Mr. Reyes. We will do that.
    Senator Voinovich. As an editorial comment, it reminds me 
that today the national debt is the highest it has ever been. 
In terms of the GDP, it is the highest in terms of GDP in 50 
years. The discretionary budget that is available is being 
hammered, non-discretionary defense budget. We have all these 
ambitious plans coming from these agencies, and the question 
is, to put it in the vernacular, where the hell is the money 
coming from.
    These are things that, if they are worthy, we should also 
be very candid about how you are going to be able to handle the 
situation, how much is the industry going to be able to 
sustain, Department of Energy, what's their budget, and where 
are they going to get the money to get to do some of these 
things that they are proposing. I think we need to get real and 
not go off down some path willy-nilly, not knowing where the 
money is going to come from to fund these new proposals and 
initiatives.
    Thanks for being here today. We appreciate your testimony 
and, Mr. Reyes, we look forward to working with you. We have 
spent a lot of time with you folks and we continue to do it 
because we think that what you are doing is extremely important 
to our country's competitiveness. We certainly need more 
nuclear power. We need to move away from using natural gas.
    Nuclear power also is very friendly in terms of the 
environment. Hopefully, with some of the new technology that we 
have, we can start to share that with other places around the 
world, and we are working on that problem, too. So thanks for 
being here today and keep up the good work.
    Mr. Reyes. Thank you, sir.
    Senator Voinovich. Good morning. I would like to remind 
you, if you can keep your remarks to 5 minutes I would 
appreciate it.
    Our first witness is Admiral Frank ``Skip'' Bowman, who is 
president and chief executive officer of the Nuclear Energy 
Institute.
    Welcome, Admiral.
    We will hear from Mr. Victor Gilinsky, who is an 
independent energy consultant. I should point out that Mr. 
Gilinsky served as an NRC commissioner in the late 1970s and 
early 1980s.
    I think you've testified before this committee before, 
haven't you?
    Mr. Gilinsky. A long time ago, sir.
    Senator Voinovich. Yes. So we are pleased to have you here 
today.
    We will begin with Admiral Bowman.

     STATEMENT OF ADMIRAL FRANK L. ``SKIP'' BOWMAN, U.S.N. 
     (RETIRED); PRESIDENT AND CEO, NUCLEAR ENERGY INSTITUTE

    Admiral Bowman. Mr. Chairman, thank you very much for the 
opportunity to testify today and express the nuclear industry's 
views on legislation to address the management of used fuel.
    We applaud this committee and you, personally, for your 
leadership in enacting the Energy Policy Act last year, with 
the strong incentives in that act to build new nuclear plants 
to meet the rising electricity demand in this country.
    Just to clear the air and for the record, as of this 
morning we have 12 companies pursuing 19 applications for 30 
new reactors.
    Senator Voinovich. You have 12 companies----
    Admiral Bowman. We have 12 companies pursuing 19 COL 
applications for 30 reactor plants.
    This morning I will focus my oral testimony on the 
following key issues: first, the Department of Energy must make 
measurable progress in implementing an integrated national 
strategy for used fuel management, including development and 
operation of the Yucca Mountain repository; second, S. 2610 can 
help address challenges facing both the DOE and the NRC on the 
Yucca Mountain project; third, I believe Congress must take 
additional actions beyond S. 2610 to remove used fuel from 
commercial nuclear powerplants quickly.
    I would request that my written statement, which addresses 
these issues in more detail, be entered into the record.
    Senator Voinovich. It will be entered.
    Admiral Bowman. Thank you, sir.
    We are very encouraged by Mr. Sproat's testimony and his 
enthusiasm and the DOE's recently announced schedule to submit 
a license application for Yucca Mountain by June 30, 2008, as 
well as the, in Mr. Sproat's words, best achievable 
construction schedule that could lead to receipt of used fuel 
by March 2017. However, we also recognize that factors outside 
the Department and outside Mr. Sproat's direct control could 
influence its ability to achieve that schedule. Two of those 
factors I believe are passage of the Nuclear Fuel Management 
Disposal Act, S. 2610, and ensuring NRC's resources do match 
upcoming requirements to the questions that you were asking Mr. 
Reyes.
    The industry strongly supports S. 2610. It should be 
enacted, along with the provisions in S. 2589, the parent 
legislation which Chairman Inhofe introduced along with 
Chairman Domenici, and also additional provisions which I will 
discuss today.
    Managing the Nation's used fuel is a Federal obligation and 
a matter of broad national policy, under the purview of the 
American people's elected representatives. Congress should 
codify ``waste confidence'' called for in S. 2610 so that the 
Nuclear Regulatory Commission need not address this broad 
policy issue as a matter of routine regulatory technical issues 
that could unduly delay the approval and review process for new 
plant construction.
    Already addressed this morning is the artificial limit of 
70,000 metric tons on the amount of nuclear waste materials 
that can be accepted at Yucca Mountain. Scientific analysis 
that has been done suggests significantly higher capacity 
easily could be achieved beyond the legislated limit. Advanced 
nuclear fuel cycle technologies could provide significant 
additional capacity for disposing of waste products in Yucca 
Mountain.
    The NRC repository licensing process should also be 
restructured as called for in S. 2610. S. 2610 takes into 
account the unprecedented scope and duration of environmental 
reviews that will be required during the construction and 
licensing process for the Yucca Mountain facility. It 
appropriately separates those non-nuclear and non-technical 
issues related to infrastructure support activities from 
repository licensing and operations. This legislation also 
recognizes the stringent Federal standards that will apply to 
the repository and eliminates unnecessary dual regulation.
    We would also encourage Congress to incorporate additional 
features into the repository development that will give future 
generations the flexibility to make informed decisions, as 
members of your committee have already discussed today, based 
on operational experience, changing energy economics, and 
technological developments. It should be made clear that the 
repository is intended to retain the ability to monitor and, if 
needed or desired, to retrieve the used fuel resources for at 
least 300 years.
    DOE should take action as soon as possible to remove used 
fuel from the Nation's plants. This is the industry's top 
priority, and it is the Federal Government's statutory and 
contractual obligation to do so, an obligation in which it is 8 
years in arrears. This action should be part of an integrated 
Government plan to exercise proper stewardship over used 
nuclear fuel.
    In order to address legitimate questions about the 
Government's used nuclear fuel stewardship, the United States 
should have a credible, long-term program to manage nuclear 
fuel. This program should integrate a number of essential 
components, including the centralized disposal facility at 
Yucca Mountain as the bull's eye, but also advance 
proliferation-proof fuel processing and fuel fabrication 
facilities and advanced reactors designed to extract the 
maximum possible energy from used nuclear fuel and to reduce 
the radiotoxicity and volume of the waste byproducts.
    The third element that should be included is one or two 
interim storage facilities. Mr. Chairman, I would reiterate 
that no one in industry has ever supported or commented 
favorably on any number larger than a few interim storage 
facilities. We think the prudent approach, would be to 
colocated them with facilities for developing advanced fuel 
processing and recycling.
    Used nuclear fuel is stored safely today at nuclear 
powerplants, either in pool storage or in dry casks. That said, 
however, I think that it is absolutely essential to public and 
State policymaker confidence that the Federal Government 
identify and develop a limited number of sites for centralized 
interim storage, ideally linked, as I said, to future 
reprocessing facilities, and begin the process of moving used 
nuclear fuel to these one or two interim storage facilities 
soon. Further delays in Federal receipt and movement of used 
fuel and Defense waste products will continue to cost the 
taxpayers on the order of $1 billion a year.
    The industry believes that the consolidation and storage of 
used nuclear fuel on a temporary basis at one or two interim 
sites can provide significant benefits in cost, system 
integration, synergy with recycling technology development, and 
confidence in the Federal waste management program.
    We would urge the Congress to evaluate alternative interim 
storage proposals, not just the one that has been addressed so 
far this morning.
    We would recommend the following principles: minimize the 
number of interim storage sites to one or two sites to reduce 
the cost and maximize the efficiencies of consolidation; 
provide host site benefits, as has been discussed; recognize 
that, while the nuclear waste fund could be used to pay for 
this interim storage, it should not be used to develop the 
complementary technologies for advanced reprocessing; and, 
finally, NRC must be provided with the necessary resources and 
appropriate management focus to accommodate these new 
proposals.
    As utilities prepare to license and build new nuclear 
powerplants, it is essential that appropriate new contracts for 
disposal of spent nuclear fuel between these utilities and DOE 
be put in place to allow the NRC to adjudicate the combined 
operating license applications that we have disucssed. The 
previously issued EPA disposal standard of 10,000 years we 
believe was appropriately protective of public health and 
safety and was consistent with other hazardous material 
regulation in the United States. This standard was remanded by 
court finding on a pure technicality. Congress should legislate 
the appropriate 10,000-year standard.
    Sir, I am ready for any of your questions.
    Senator Voinovich. Thank you very much.
    Mr. Gilinsky.

  STATEMENT OF VICTOR GILINSKY, INDEPENDENT ENERGY CONSULTANT

    Mr. Gilinsky. Thank you, Mr. Chairman. As you mentioned in 
your generous introduction, I have been an independent energy 
consultant. I should add to that that for the past few years I 
have been a consultant to the State of Nevada on Yucca Mountain 
issues.
    I would like to address briefly three NRC-related items. 
The first is interim storage that you have heard so much about, 
the second is the NRC's waste confidence rule, and the third is 
the new Global Nuclear Energy Partnership, GNEP.
    First, interim storage. Now, no matter what happens with 
Yucca Mountain, whether it goes forward or not, on schedule or 
not, we are going to need a lot of spent fuel storage. The 
generating companies are preparing themselves by building 
facilities at their sites to store spent fuel in dry casks. The 
technology is straightforward. The NRC has been licensing these 
facilities and they don't appear to strain the Agency very 
much.
    It would be also good to have regional storage sites, I 
believe of the sort the admiral is speaking about. I think we 
are in agreement here. First, for overflow capacity, some of 
the utilities may be pinched for space, although most of them 
have adequate space at their sites. Second, to collect fuel 
from the shut-down reactors, the so-called orphans. There are 
about a dozen of these, or 10 or 12. And, third, eventually to 
collect all the spent fuel under dedicated storage management.
    Senator Domenici's bill actually allows for such central 
facilities. The idea is a good one.
    In the short run, for safety and security it would be a 
good idea to move the spent fuel from reactor pools into dry 
casks as soon as the fuel cools sufficiently. Senator Reid's 
bill addresses this point.
    Now, all this would make sense even if you thought Yucca 
Mountain was on track, but experience tells us that it isn't. 
DOE's projected opening date has slipped 7 years since Congress 
voted on the Yucca Mountain resolution 4 years ago, and now we 
hear that projected date is an optimistic date, it is 
contingent on Congress passing certain legislation.
    You probably know that last week the Secretary of the 
Interior vetoed the private fuel storage facility in Utah, in 
part because he concluded it was not prudent to rely on Yucca 
Mountain opening. I think that is pretty significant.
    This leads directly to the second item, the NRC's waste 
confidence rule. Let me give you a little bit of a different 
view on that. The current version of the rule was adopted in 
1990. It says the NRC is confident that a geologic repository 
will open in 2025. Now, in 1990, when the NRC adopted that 
rule, it said it was not pre-judging the Yucca Mountain case 
because if Yucca Mountain did not work out there would still be 
time for another repository to be built. That was true then; it 
is no longer true today with the passage of time.
    In effect, what the rule is saying is that the NRC is 
confident that Yucca Mountain will be licensed. In other words, 
the NRC is pre-judging the case. Nevada appealed to the NRC to 
remove that date and just say that they are confident that the 
spent fuel will be taken care of adequately. The Commission 
refused, even though this would also have benefitted its power 
reactor licensees, taken the pressure off them. In any event, 
Nevada appealed to the Federal court and the case is being 
argued even as we speak here today in the court of appeals. I 
suppose we will find out what the Federal courts think about it 
pretty soon.
    Now, the bills before you would have Congress change the 
rule for the NRC. In my view, because such a change involves a 
safety judgment, and they are the stewards of nuclear safety, I 
believe it is more responsible that the NRC should do this, 
itself, through rule-making.
    My third item concerns GNEP, the Administration's grand 
plan for developing technology to transform the distant future 
of nuclear power worldwide. It is not likely to demand much in 
the way of NRC resources for quite some time, I think. That may 
change, however, if DOE pursues its latest idea, which is to 
``fast track the GNEP demonstration plans.'' I think fast 
tracking carries a lot of risk here. It is a very chancy thing. 
I have to say it gives me pause that I can't think of a single 
instance--and perhaps I'm wrong--of DOE developing a major 
technology to full scale and then passing it successfully to 
industry. At this point, GNEP contains some concepts that might 
be useful if they worked, but they are a long way from being 
practicable.
    I would say, as a final thought, at a minimum DOE should 
have to pass NRC safety licensing for any substantial 
demonstration facilities in this program. This is going to slow 
them down, but it will keep their feet on the ground.
    Thank you.
    Senator Voinovich. Thank you.
    Mr. Bowman, I was very interested that, on behalf of the 
industry, you have said that these interim facilities are 
something that the industry is supportive of, but that you do 
not support 30 of these facilities. I would like you to comment 
on two things. One is, Mr. Gilinsky is suggesting that 
everything be moved into dry storage, and the cost to the 
industry of that and the ratepayers is one thing, but also you 
mentioned one or two facilities that would be built to handle 
this storage.
    I guess the last thing is, is part of all of this trying to 
give confidence to the financial markets that the issue of 
storage is going to be dealt with in a responsible fashion? I 
know that several years ago when we had testimony before this 
committee one of the things that was raised about nuclear 
facilities was, you know, what are you going to do with the 
storage. That came from some folks in the bond market.
    Can you kind of tie all this together and give me your 
perspective on it, industry's perspective?
    Admiral Bowman. Yes, sir.
    Mr. Chairman, I agree with Mr. Gilinsky that the storage of 
used fuel as we are doing it today at our existing reactor 
sites is perfectly technically safe. There is no impact on the 
public health and safety and it is absolutely a safe thing for 
us to be doing. The problem is the need to maintain the support 
of the American people, which we enjoy today to the extent of 
some 60 to as high as 80 percent approval ratings.
    You can't get 80 percent of Americans to say they like 
vanilla ice cream, but we have 80 percent of Americans in some 
polls saying that nuclear energy simply must be a part of the 
future energy mix in this country. To retain that public 
confidence we believe that we need to show that the Government 
intends to honor its statutory obligation to take title to and 
move this nuclear fuel out of the individual States into a 
centralized facility.
    While I am encouraged by Mr. Sproat's 2017 optimistic 
deadline for opening Yucca Mountain, I believe that we should 
have a parallel path as a Plan B, if you want to call it that, 
to accommodate used fuel more quickly, if 2017 doesn't work out 
for us. We need to show the American people that the Congress 
fully supports this industry, as you have done over the past 
many years now, including in the Energy Policy Act, through 
enactment of legislation that addresses interim storage on a 
small scale--one, two, three interim storage sites--and also to 
address the waste confidence issue.
    I would disagree with Mr. Gilinsky on one point. I believe 
that the waste confidence issue is not an issue under the 
purview of the Nuclear Regulatory Commission because it is not 
a technical question; it is a public policy question and 
Congress, the elected officials of the American people, is the 
body that determines public policy.
    The issue of waste competence arose because one of the many 
interveners along the way challenged the issuance of a license 
that NRC had given to a utility on the basis that that utility 
had not included in its environmental impact statement the 
retention of used fuel at that site for the lifetime of the 
plant. The Nuclear Regulatory Commission explained to the court 
that that wasn't necessary to include in the EIS, because there 
would be this centralized repository.
    Since then, to avoid reopening that question of must an EIS 
address lifetime storage, the Nuclear Regulatory Commission has 
relied on the promises of Congress and the statutory 
obligations of enacted legislation to say with confidence, to 
use that word, that there is a long-term storage program for 
this country that avoids having to have the environmental 
impact statements address keeping that fuel at the sites 
forever and ever. So, in my view, waste confidence is a matter 
before the Congress and not a matter before the Nuclear 
Regulatory Commission.
    Senator Voinovich. Thank you.
    Senator Carper. Thank you, Mr. Chairman.
    Gentlemen, welcome. It is good to see both of you. Thank 
you for your testimony and responding to our questions.
    I would just ask Mr. Gilinsky, first of all, just briefly, 
where do you think you and Admiral Bowman agree?
    Mr. Gilinsky. Well, it sounds like we agree that there 
ought to be a Plan B on addressing what is generally called 
interim storage.
    Senator Carper. Anywhere else, at least on the issues 
before us today?
    Mr. Gilinsky. I just shook hands with him, but on the basis 
of the testimony I think really that is the essential point, 
that there ought to be a parallel approach to surface storage.
    Senator Carper. Admiral, where do you think you agree?
    Admiral Bowman. Sir, if I could dissect Mr. Gilinsky's 
testimony, I agree with virtually everything he said. I 
disagreed with the issue of waste confidence, as I just 
explained. I do think that is a matter before the Congress.
    Second, Mr. Chairman, I forgot to address your third point, 
from your earlier question, and that is the issue of why it is 
necessary to move fuel from safe storage and spent fuel pools, 
which has been the original intent from the beginning of these 
plans, into dry storage. You asked about the cost. I don't have 
a good figure. I will certainly supply that for the record, but 
I will tell you that it is very expensive to do that.
    [The referenced document follows on page 71.]
    Admiral Bowman. Now, an argument against requiring moving 
from the spent fuel pools to dry storage, the other issue that 
I would take with Mr. Gilinsky's testimony is that it is 
perfectly safe in the spent fuel pools. Scenarios that 
hypothesized various terrorist actions, various accidents that 
could occur in the spent fuel were analyzed by the National 
Academy of Science, with recommendations for the Nuclear 
Regulatory Commission to implement certain requirements, 
certain regulations having to do with shifting fuel around 
inside the pools, delaying putting the fuel into the pool until 
it cools, and those kinds of things. All those actions have 
been completed at all 103 nuclear powerplants in operation in 
this country.
    So in my view it would be an unnecessary expense, it would 
require us to handle this used fuel an additional time, and I 
think it is unnecessary. That is the second place I would 
disagree. But other than that, I agree with Mr. Gilinsky. We 
only met, so it is hard to say where all we agree, but 
certainly I agree with everything else that he said.
    Mr. Gilinsky. Senator, if I could just add a word, I was 
trying to retain an air of agreement, but if you are looking 
for shades of disagreement or difference, the Admiral mentioned 
the National Academy of Science report. Indeed, the fuel is 
safe at the sites where it is, but as the National Academy of 
Science report says, it is inherently safer and more secure in 
dry casks, so it is a better answer. You should not be loading 
up these fuel pools excessively because they do rely on active 
safety systems. In the dry casks it is basically a passive 
system. It is highly protected. It is not in water. I think it 
is just a better and safer and more secure approach, and we 
ought to shift the fuel as soon as we can into that form, spent 
fuel.
    Senator Carper. I don't know if it was you, Admiral Bowman, 
or another witness who talked about the number of interim 
storage facilities we might have, but how do we incentivize 
State or local communities or tribes to use their tribal lands 
to be willing to receive those materials for an interim period 
of time, which I agree could be more than just a couple years? 
Mr. Gilinsky, I'm going to ask you to answer that as well, 
please.
    Admiral Bowman. Senator Carper, that is a wonderful 
question, and it also gives me the opportunity to suggest that 
the industry believes that these one, two, or three interim 
storage sites, these small number of interim storage sites 
should be linked to this advanced technology proposal that 
underpins the GNEP concept.
    Yesterday I heard Assistant Secretary of Energy Dennis 
Spurgeon state that, in response to the Department of Energy's 
request for expressions of interest, that he had received 14 
submittals from various localities around the country on a 
voluntary basis that they were, indeed, interested in the 
concept of developing this advanced reprocessing technology, 
and with it taking on the interim storage that would be a part 
of that project. So the kinds of incentives that we are talking 
about are those that the Department of Energy is already 
proposing and that apparently appeals to a large number of 
localities around our country.
    Senator Carper. Good. Thanks.
    Mr. Gilinsky.
    Mr. Gilinsky. Well, when we talk about siting waste 
facilities, that gets into a lot of complex issues, local 
issues, political issues, but I would say this for a surface 
facility: the technical issues are much simpler than for a 
geologic facility, where there are a lot of uncertainties. In 
fact, I actually like the idea of monitored surface storage, 
because if there are problems you can fix them. The problems 
with deep underground disposal is that you have to be very 
sure, because once you've closed it up all errors are 
irretrievable, and that is what leads to all the hand-wringing.
    There's another aspect of this, which simply lies behind 
people's concern and resistance, it is just that they don't 
have confidence in the Government. I think one has to think 
about perhaps different institutional arrangements than we have 
had in the past. They don't have confidence in the agencies 
that have worked this problem in the past.
    Senator Carper. All right. Thanks.
    Mr. Chairman, sort of a sidebar here with you, going back 
to when you all were trying to figure out where to put the low-
level radioactive waste in Ohio and we were trying to figure 
out where to do it in the Delaware Valley, it always seemed to 
me that if you, in a broader sense, with respect to high-level 
nuclear waste, if you say to a community that we are going to 
cut your utility bills in half or your electric bill in half or 
we are going to provide rebates on your property taxes for 
those of you that are within a certain proximity to this kind 
of facility, there are ways that--I don't know if you can make 
an offer to folks that they can't refuse, but there are ways 
that you can make this pretty attractive to folks aside from 
just the investment and the kind of jobs that are created here.
    I would hope that if we are to go down, continue to pursue 
Yucca, try to identify places to put these interim storage 
units, that we are going to couple that with this GNEP and also 
continue to maintain storage on site, we need to be smart 
enough to find ways to incentivize communities so that not 
necessarily they will stand in line like these 18 or so that 
have expressed an interest, but there will be a--when the 
community leader stands up and says this could be good for our 
community, they won't have their heads handed to them.
    Senator Voinovich. Well, I would like to be as optimistic 
about this as Mr. Bowman is, but I think that, even with low-
level storage facility, the controversy that is involved is a 
question of the geography and terrain and the rest of it, and 
the NIMBY problem.
    I think that two or three of these perhaps maybe makes 
sense. To go to 30 of them I think is a problem. You know, Mr. 
Bowman, you never did answer the question about the financing 
of these facilities. You just talked about the applications for 
so many and so on, but is this waste confidence thing going to 
impact on the ability for these folks that want to build these 
to get the money they need to do it? I mean, they have to 
borrow the money from somebody. Is that an issue today do you 
think on Wall Street, waste confidence, or not? That is a 
surprise to me, because before it seemed to be a big deal, and 
now all of the sudden--maybe it is the energy bill and the 
incentives that we put in for the first six of them, I think, 
but why has that changed, and how much of what we are doing 
here is kind of giving them the confidence that if Yucca 
doesn't happen we are going to be doing something else?
    Admiral Bowman. Yes, sir. You are right, when I addressed 
the question, I didn't get back to the Wall Street side. I 
spoke of the public confidence that would come with sure 
knowledge that the U.S. Congress is behind this and that U.S. 
Congress intends to ensure that proper used fuel stewardship is 
in place. It is the public confidence that I think would spill 
over to Wall Street.
    With the Wall Street analysts, Mr. Chairman, much more 
important and much higher on their minds is the provision in 
the Energy Policy Act from last year that provides for 
Government-backed guaranteed loans for these projects. I would 
point out that it is not just nuclear that was given that 
guaranteed loan provision opportunity, it is all clean energy. 
So in this regard nuclear was lumped with solar, wind and 
geothermal to ensure that project cost and financing could be 
done on a basis that was favorable to the industry, most 
importantly, favorable to the consumer and saving our 
ratepayers enormous sums of money. With guaranteed Government 
loans we could highly leverage these plants so that the 
financing would take the form of, for instance, 80/20, percent.
    Senator Voinovich. It is my understanding that this loan 
guarantee is going to apply to all of these? I thought it was 
just going to be----
    Admiral Bowman. It is to all, yes, sir.
    Senator Voinovich. All of them?
    Admiral Bowman. Yes, sir. Now, the industry is paying for 
this. The industry pays for the premium for this loan backing 
based on an OMB formula that goes to the probability of failure 
and the amount that is being indemnified on each project, so 
this is not a subsidy. The is something that the industry----
    Senator Voinovich. It will reduce the projected cost? I've 
got to be more familiar with the financing. The industry is the 
backup on it? In other words, if one of these goes belly-up, 
the Feds are there, but the industry is backing them up? It is 
like a re-insurance?
    Admiral Bowman. If one of these went belly-up, the Federal 
Government would take custody of the plant and the facilities 
and they would be the Federal Government's. The loan guarantee 
is that the Federal Government is backing the industry. But 
like insurance work, the industry would pay a premium for the 
right for the Government to do this. It is just like the 
Export/Import Bank loans that are traditional. It is like that, 
sir, and it would apply for all these new plants--solar, wind, 
nuclear--without limitation. The six-plant limitation applies 
to the other two provisions in the Energy Policy Act, the 
production tax credit and the so-called risk insurance. That is 
a different kind of risk. That is the risk of regulatory 
failure.
    Mr. Gilinsky. Actually, Senator, most of those plants are 
coming from the Southeast where they are regulated, and the 
loan guarantees aren't as important as the credits. The loan 
guarantees are important for the unregulated plants.
    Senator Voinovich. Mr. Bowman, you have heard the testimony 
of Mr. Reyes about the status of the hiring of people over at 
the NRC, and you speak, I'm sure, with folks that are involved 
with the NRC. I would like your appraisal of how accurate he 
was in terms of bringing on the personnel that they need to get 
the job done, and then also comment on the additional people 
that Mr. Reyes said that they would need to do the siting of 
these facilities that you think we need to have, and, last but 
not least, this GNEP thing and what impact would that have on 
them at a time when we want to get those COLs moved down the 
street as quickly as possible.
    Admiral Bowman. Sir, as I recall Mr. Reyes' testimony, he 
said that the goal at the NRC was to net 200 personnel per year 
for the next 3 years, and I know that they have set that as a 
goal and last year they met that goal. I am happy to report 
that across the country progress is being made. You and I have 
had private conversations about this. As you know, I sit on 
three visiting committees at universities as an effort to 
encourage----
    Senator Voinovich. Yes, thank you very much for your 
lobbying to make sure they maintain their programs.
    Admiral Bowman. Yes, sir. The good news is many of those 
university programs now are filled to overflowing, whereas 2 
years ago, when you and I first talked about this we were 
somewhat worried that it wasn't going to happen that way. I am 
happy that you helped us turn around the University of 
Cincinnati. I don't know where that logic came from to do away 
with their program, but I think that is back on track now and 
they don't intend to do away with their nuclear engineering 
program.
    But I think the NRC's goal is proper. I think they have 
looked carefully at the assets required. They are challenging 
industry to be sure that we know what we are talking about when 
we say 19 applications for 30 plants because, they are going 
out and hiring to those kinds of numbers to ensure that they do 
have the assets in place. I applaud that effort and I am doing 
everything in my power to help universities encourage young 
people to go into the sciences and engineering that would help 
both industry and the Nuclear Regulatory Commission.
    Senator Voinovich. Well, the question is so you think they 
are doing okay, but what about the impact that this would have?
    Admiral Bowman. Well, the technologies underlying the GNEP 
proposals, would obviously put an additional strain on the 
Nuclear Regulatory Commission. You asked the right questions. 
To my knowledge, from my Naval reactor days and being a co-
regulatory with the Nuclear Regulatory Commission for the other 
103 nuclear powerplants in this country--they are the ones that 
are underwater and moving our aircraft carriers around--I don't 
think that the NRC has in-house today the talent, the ability 
to adjudicate fast reactor technology. I don't think that they 
necessarily have in house today people ready to step up and 
begin looking at licensing and advanced reprocessing. So surely 
it would put a strain in addition to the strain that they are 
already going to feel with this resurgence of new nuclear on 
the Nuclear Regulatory Commission.
    I can't speak directly to the numbers with any authority 
because I haven't looked at it.
    Senator Voinovich. The GNEP $13 billion, if I heard you 
correctly, you indicated that you thought that the spent fuel 
fund could be used for that but that the technology cost of 
that should not be?
    Admiral Bowman. Sir, what I should have said was that I 
believe that the law allows and that it would be prudent and 
proper that, if we had these two or three interim storage 
sites, the cost of developing those interim storage sites, 
which we heard in testimony in a different committee yesterday 
on the order of $15 million per site. I think that the cost for 
developing----
    Senator Voinovich. That was $15 million?
    Admiral Bowman. Per site. It is nothing more than a 
concrete pad. This is not a rocket science kind of project that 
would have to be developed. Now, there's a little bit more to 
it than that. But $15 million was the approximation that Mr. 
Sproat, in fact, provided yesterday, for the construction 
aspects. I think we heard Mr. Reyes say that he's looking at 
about $10 million per project.
    So the industry's position is the cost for developing, for 
licensing these interim storage sites could be borne by the 
Nuclear Waste Fund, but the cost for developing the 
complementary technologies for GNEP, should in no way, shape, 
form, or fashion be taken from the Nuclear Waste Fund. That is 
not what it was intended to do, whereas interim storage is a 
piece of what it was intended by the original Nuclear Waste 
Fund.
    Senator Voinovich. The GNEP, isn't that being done 
someplace else? Aren't they doing that in Europe today? Where 
is the technology on that?
    Admiral Bowman. Sir, this gets somewhat complicated. I will 
go quickly. In France, in Russia, in Japan, in the United 
Kingdom reprocessing is taking place today, but it is the type 
of reprocessing that this country walked away from years and 
years ago because it is the type of reprocessing that produces 
as an end product a pure stream of plutonium, and for 
proliferation concerns the United States decided to stop that 
type of reprocessing, and we've stuck to that for these years.
    The type of reprocessing that is envisioned in the long 
term that would underlie or undergird the Global Nuclear Energy 
Partnership idea would be a new kind of reprocessing. The type 
I just described is called PUREX. This advanced reprocessing is 
called UREX. It would not generate a pure stream of plutonium 
as an end product. In fact, it would bind the plutonium to some 
of the nasty stuff that is a part of the spent fuel that would 
make it more or less proliferation proof. It would not be 
something that you and I would want to walk in and put in the 
back of our cars and drive off with, for sure. Advanced 
reprocessing has been proven at a laboratory scale, petri 
dishes, small gram amounts of reprocessed capability, but it 
has not been proven at a commercial scale. That is the billions 
and billions of dollars of R&D and the long-term, long-time 
investment that would be required for this country to go in 
that direction.
    Now, that said, despite the billions and despite the years 
that it might take, the industry believes that that is the 
proper thing to do for the proper stewardship of this used 
fuel. Advanced reprocessing, not the type that France, England, 
Japan and Russia are doing today, would in the final analysis, 
reduce dramatically the radiotoxicity and the volume 
requirements for repositories and that amount of used product 
that has to go into the earth.
    Senator Voinovich. So if the Department of Energy is 
looking at this issue--again, from the testimony, if you are 
looking for these temporary storage facilities, that someone 
could be also looking at it in terms of this GNEP thing? In 
other words, where would be a good place to do the GNEP and do 
that interim storage, but the GNEP would follow later on in 
terms of----
    Admiral Bowman. Exactly.
    Senator Voinovich. Yes.
    Admiral Bowman. Sir, I think the word option comes into 
play here, and it is to Mr. Gilinsky's point. If we ever do, 
get to the point that we put this used fuel into a repository 
like Yucca Mountain and close the door and lock it and walk 
away, that would be wrong for all the reasons Mr. Gilinsky 
said, because if something did go wrong then we wouldn't have 
the opportunity to re-enter and make it right, but that is not 
what is planned, either at Yucca Mountain or these interim 
storage sites. They would certainly give us the opportunity, as 
Mr. Gilinsky said, to monitor on a daily basis what's going on, 
to allow the fuel to be cooling down, reducing repository 
requirements. It has a whole lot of attendant good to it.
    Back to the Yucca Mountain project. The original Nuclear 
Waste Policy Act in 1982 required by law an unspecified period 
of monitoring and retrievability for this repository. To 
accommodate that requirement, that law, the final environmental 
impact statement at the Department of Energy includes a period 
of monitoring and retrievability of 50 to 300 years. It is also 
embodied in NRC regulation that at least 50 years of monitoring 
be available after the fuel is in the Yucca Mountain 
repository.
    In my testimony today I encouraged that we look at 
extending that period even beyond 300 years. I think that Mr. 
Gilinsky is exactly right: there is no reason to finally close 
the door. I think my grandkids are going to be smart enough to 
make their own decisions based on advances in technology to 
decide whether it is economically feasible and proper for the 
stewardship of this used fuel to pull it back out and reprocess 
it, as an example.
    So the industry supports as much flexibility and as much 
future option for future generations as we can build and design 
into this facility.
    Senator Voinovich. It is the commercial stuff from the dry 
casks and waste pools that would go out there, and you made it 
clear that the military will use up a good bit of this, so we 
are talking about increasing the tonnage out there, correct?
    Admiral Bowman. Yes, sir.
    Senator Voinovich. The other thing that was brought up is 
the issue of expanding the site so that things that are not 
consistent with it wouldn't be built. That question came up. I 
wondered, would the money from the fund be used to purchase 
that property? Wouldn't we have the same problem? Mr. Gilinsky, 
you spent some time out in Nevada. How well would that be 
received?
    Mr. Gilinsky. Well, it wouldn't be well received at all 
because the site is a poor one, basically. But the people that 
are talking about expanding are talking about using the same 
area but just putting more fuel in there.
    I wonder if I could add a word about GNEP, just one point?
    Senator Voinovich. Sure.
    Mr. Gilinsky. GNEP has lots of moving parts and I don't 
think we have time to really go through all this, but it is 
said over and over again that it reduces the waste, and it does 
in a certain respect in that it burns up the plutonium, or 
would if the whole thing worked, but one thing which is not 
advertised, the way you get GNEP to reduce the amount of 
material that goes into a disposal facility is that you leave 
the hottest, most radioactive isotopes on the surface. I mean, 
that is part of the GNEP plan. Cesium and strontium, which are 
the hottest initially, the isotopes you worry about the most, 
they are not going to put those in a repository at all because 
if you put them in there then you've got the heat load, you are 
not reducing the heat load, and therefore you are not reducing 
the amount of repository space that you need.
    If you are willing to leave the hottest stuff on the 
surface, it is kind of unclear why you are going through this 
entire exercise. Why not just leave the spent fuel on the 
surface?
    Senator Voinovich. Mr. Bowman, do you have anything on 
that?
    Admiral Bowman. Sir, I am not here to defend GNEP 
necessarily but, for the record, the DOE's vision and, frankly, 
the Administration's vision of GNEP is not exactly as 
described. The advanced reprocessing would not only remove the 
plutonium, which Mr. Gilinsky said correctly would be burned in 
a fast reactor. Remember I said that the plutonium would be 
bound to this other stuff, and that other stuff is called 
actinides. Actinides are the real driver for the size of the 
repository after about 80, 100 years. The heat load from the 
fission products such as cesium and strontium that Mr. Gilinsky 
spoke of carry the day and drive the size of the repository for 
the first 80 years, but then these long, long, long-lived, long 
activity, hot actinides are the driver for the size of the 
repository out to the hundreds of thousands of years.
    The idea in the GNEP program would be to develop the 
technology which doesn't exist on a commercial scale today to 
pull that actinide out and burn it also, fission it, and 
extract energy from it in a fast reactor. By doing so you get 
energy and you get rid of that long-lived stuff, you reduce the 
radiotoxicity and the volume requirements of the repository. 
That is more what is envisioned for the long-term efforts of 
this Global Nuclear Energy Partnership.
    Mr. Gilinsky. I agree with that, but the fact is they are 
planning to leave the fission products, the hottest fission 
products on the surface, and those are the ones that for the 
first 80 or so years are, in fact, the hottest isotopes.
    Senator Voinovich. Well, we will probably be talking about 
it some more.
    Mr. Gilinsky. Right.
    Senator Voinovich. I want to thank you both very much for 
being here today. The record will be held open for questions. 
Thanks very much.
    Mr. Gilinsky. Thanks very much, Mr. Chairman.
    Senator Voinovich. The meeting is adjourned.
    [Whereupon, at 11:30 a.m., the subcommittee was adjourned.]
    [Additional statements submitted for the record follow:]

     Statement of Hon. Frank R. Lautenberg, U.S. Senator from the 
                          State of New Jersey

    Mr. Chairman, thank you for holding this hearing on the Nuclear 
Regulatory Commission's capabilities and responsibilities for short- 
and long-term storage of spent nuclear fuel.
    Nearly 52 percent of my State's electricity comes from nuclear 
power. Across the Nation, 20 percent of our electricity is from nuclear 
powerplants. As we seek ways to use less foreign oil and do more to 
protect our environment, nuclear power may become more central to our 
energy portfolio.
    But when making decisions about nuclear power, we must always put 
the health and safety of our citizens first. That is why the question 
of disposal of nuclear waste is so difficult. Since 1984, our long-term 
option has been Yucca Mountain in Nevada. But with questions about 
health standards, falsified data, and the safety of transporting waste 
from all over the country, its completion date drifts further into the 
future every day.
    Senator Domenici has offered an alternative plan: to create interim 
storage sites in States with nuclear reactors or at regional facilities 
for up to 25 years. While I appreciate the search for a solution, I'm 
concerned about this approach, too. Under the Domenici plan, the 
Department of Energy would have the authority to override State law. A 
State's Governor could recommend the best site and the Department of 
Energy could just say ``no.''
    There is also the question of the safety of transporting nuclear 
waste to interim sites in dozens of States. It is risky enough to have 
to move nuclear waste once. To move from these short-term sites to a 
long-term one, we'd need to move it twice.
    I look forward to hearing from today's witnesses on all of these 
challenges. Thank you Mr. Chairman.

                               __________
          Statement of Hon. Harry Reid, U.S. Senator from the 
                            State of Nevada

    I want to thank the Chair, the Ranking Member and other members of 
the committee and subcommittee for the opportunity to present testimony 
on the issue of spent nuclear fuel storage and security. This issue is 
important to the national security of all Americans.
    I am pleased that the committee is discussing different options for 
spent nuclear fuel storage. Years of problems with the proposed Yucca 
Mountain repository--from new scientific data demonstrating geological 
and environmental problems with the site to scientific and technical 
missteps and misrepresentations that have been ignored by Department of 
Energy (DOE) management for decades--have led many to conclude that 
Yucca Mountain is unable to meet basic public health, scientific and 
safety requirements and, thus, is an inappropriate site for the long-
term storage of spent nuclear fuel.
    Even the Administration knows that Yucca Mountain is a flawed, 
dangerous project. This is reflected in the Administration's bill, 
which tells us everything the Administration knows is wrong with Yucca 
Mountain. They have sent us this legislation to change the rules, break 
the law and prevent States from protecting their citizens.
    If Yucca Mountain were scientifically sound--if it genuinely was a 
safe place to store nuclear waste--the Administration would not need to 
gut the laws that regulate hazardous waste handling and transportation, 
clean air, water rights, public land laws, and environmental policy. If 
Yucca Mountain were scientifically sound, the Administration would not 
need to preempt States' rights.
    If Yucca Mountain were scientifically sound--if it was genuinely 
safe--we would not have the Administration's bill and we would not be 
discussing it today.
    Let us be honest. The Administration is trying to prevent the 
States from protecting themselves and their citizens. It is important 
to remember that this proposal does not just affect or preempt Nevada, 
but your States as well.
    What may be even worse is that Congress is being asked to approve 
the gutting of all these laws and authorities for a project without any 
details, with no assurance of its safety, no assurance of its 
viability, and no assurance of its long-term integrity.
    We cannot sacrifice our Nation's national security for this short-
sighted proposal. It is time for us to stop wasting time and money 
researching, redesigning and rescheduling Yucca Mountain. After more 
than 20 years we know that it will not work. It is time for us to look 
at other alternatives for securing our spent nuclear fuel while we 
search for a safe and scientific long-term solution.
    Many, including some of my esteemed colleagues on this panel, see 
nuclear power to be a solution to many of our energy problems. But for 
nuclear power to solve these problems, we must scientifically address 
its challenges--spent nuclear fuel storage and transportation, the 
security and siting of nuclear facilities, and nonproliferation. I 
would like to see these problems solved.
    But that will never happen until we actually look for and find a 
scientific solution, not a political solution, to these challenges. 
America has the best minds in the world. I believe that if we truly 
focused on solving the problems of spent nuclear fuel, we could.
    How are we to secure the waste in the interim? We leave it on-site 
in dry cask storage, where it is safely and securely stored now and 
where the experts and the nuclear industry have demonstrated that it 
will continue to be safely stored for decades.
    That is exactly what The Spent Nuclear Fuel On-Site Storage 
Security Act of 2005, S. 2099, which I introduced last year with 
Senators Ensign, Bennett and Hatch, does. This bill is a road map and a 
timeline for safely securing our spent nuclear fuel for 1 to 200 years, 
giving us time to find a safe, scientific long-term solution to this 
national security issue.
    A 1979 study by Sandia National Laboratory determined that, if all 
the water were to drain from a spent fuel pool, dense-packed spent fuel 
would likely heat up to the point where it would burst and then catch 
fire, releasing massive quantities of volatile radioactive fission 
products into the air. Both the short-term and the long-term 
contamination impacts of such an event could be significantly worse 
than those from Chernobyl. The report concluded that the consequences 
would be so severe and would affect such a large area that all 
precautions must be taken to preclude them. This is the type of 
serious, avoidable risk against which all the Nation's nuclear sites 
can and should be protected to counter terrorist threats.
    On March 28, 2005, the Washington Post revealed that a classified 
National Academy of Sciences (NAS) report concluded that the Government 
does not fully understand the risks a terrorist attack could pose to 
spent nuclear fuel pools and that it ought to expedite the removal of 
the fuel to dry storage casks that are more resilient to attack. The 
public version of this same report found that fuel in spent fuel ponds 
is an attractive terrorist target and that there are inherent benefits 
to placing the fuel in secure, dry casks.
    The technology for long-term storage of spent nuclear fuel in dry 
storage casks has improved dramatically in the past 20 years. Fourteen 
cask designs have been licensed by the Nuclear Regulatory Commission, 
which says that spent nuclear fuel can be safely stored using dry cask 
storage on-site at nuclear powerplants for 1 to 200 years. Already, dry 
casks safely store spent nuclear fuel at 57, more than 50 percent of 
sites throughout the country, many of them near communities, water ways 
and transportation routes. The Nuclear Regulatory Commission has 
received applications for dry cask storage at 15 additional sites. The 
Nuclear Energy Institute projects that 83 of the 104 active reactors 
will have dry storage by 2050, which seems like a conservative estimate 
based on current numbers, but acknowledges the safety and inevitability 
of on-site, dry cask storage.
    Compared to water-filled pools, dry storage casks are significantly 
less vulnerable to natural and human-induced disasters, including 
floods, tornadoes, temperature extremes, sabotage, and missile attacks. 
In addition, dry storage casks are not subject to drainage risks, 
whether intentional or accidental.
    In addition, on-site storage saves money. DOE's last estimate for 
Yucca Mountain, a low ball estimate, was $56 billion. Nevada estimates 
$100 billion. Dry cask storage at all sites is estimated to cost, at 
the low end, $4.5 billion, up to $10.5 billion, tops. It's important to 
remember that 54 of those sites are already built, so future costs are 
really $2.25 to $5.25 billion.
    My bill requires commercial nuclear utilities to safely transfer 
spent nuclear fuel from temporary storage in water-filled pools to 
secure storage in licensed, on-site dry cask storage facilities. After 
transferal, the Secretary of Energy will take title and full 
responsibility for the possession, stewardship, maintenance, and 
monitoring of all spent fuel thus safely stored. Finally, our bill 
establishes a grant program to compensate utilities for expenses 
associated with transferring and securing the waste.
    These costs will be offset by withdrawals from the utility-funded 
Nuclear Waste Fund. Currently, utilities are suing for reimbursement 
for these costs, and winning, from a Department of Justice compensation 
fund. The only fiscally prudent path is to pay for spent nuclear fuel 
storage with the funds raised to pay for it.
    Nuclear facilities currently provide 20 percent of our Nation's 
electricity, but in light of the events of September 11, they also 
present a security risk that we simply must address. There cannot be 
any weak links in the chain of security of our Nation's nuclear power 
infrastructure. There is absolutely no justification for endangering 
the public by densely packing nuclear waste in vulnerable spent fuel 
pools when it can be stored safely and securely in dry casks. My bill 
guarantees all Americans that our Nation's nuclear waste will be stored 
in the safest way possible.
    It should be clear to anyone that the proposed Yucca Mountain 
project is scientifically unsound and that it cannot meet the 
requirements of law. It is not going anywhere. Delay after delay costs 
the taxpayers billions and billions of dollars for a project that the 
courts have ruled does not meet sufficient safety or public health 
standards. I do not believe that Yucca Mountain will ever open, and 
Nevada and the country will be safer for our successful efforts to stop 
the project.
    But we cannot ignore the fact that nuclear power produces spent 
nuclear fuel and must vigorously research ways in which to decrease the 
toxicity, longevity and volume of these wastes. Until we have developed 
safe, scientific ways to do this, we must securely store our waste. The 
experts agree that the safest solution is to remove the fuel from the 
spent fuel ponds and to store it on-site in dry cask storage.
    I urge my colleagues to support The Spent Fuel On-site Storage and 
Security Act of 2006, S. 2099. It's the right solution for the American 
people.

[GRAPHIC] [TIFF OMITTED] T7642.007

[GRAPHIC] [TIFF OMITTED] T7642.008

[GRAPHIC] [TIFF OMITTED] T7642.009

[GRAPHIC] [TIFF OMITTED] T7642.010

[GRAPHIC] [TIFF OMITTED] T7642.011

[GRAPHIC] [TIFF OMITTED] T7642.012

[GRAPHIC] [TIFF OMITTED] T7642.013

Statement of Edward F. Sproat III, Director for the Office of Civilian 
        Radioactive Waste Management, U.S. Department of Energy
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to appear before you today to discuss S. 2589 entitled the 
``Nuclear Fuel Management and Disposal Act.'' Enactment of this bill 
would significantly enhance the Nation's ability to manage and dispose 
of spent nuclear fuel and high-level radioactive waste. I thank Senator 
Inhofe and Senator Domenici for taking up this critical issue and 
introducing the legislation.
    Over the last 50 years, our country has benefited greatly from 
nuclear energy and the power of the atom. We need to ensure a strong 
and diversified energy mix to fuel our Nation's economy, and nuclear 
power is an important component of that mix. Currently more than 50,000 
metric tons of spent nuclear fuel is located at more than 100 above-
ground sites in 39 States, and every year reactors in the United States 
produce an additional approximately 2,000 metric tons of spent fuel. In 
order to ensure the future viability of our nuclear generating 
capacity, we need a safe, permanent, geologic repository for spent 
nuclear fuel at Yucca Mountain.
    Recently the Department announced its plans to submit a License 
Application for the repository to the Nuclear Regulatory Commission 
(NRC) by June 30, 2008, and to initiate repository operations in 2017. 
This opening date of 2017 is a ``best-achievable schedule'' and is 
predicated upon enactment of the pending legislation. This proposed 
legislation addresses many of the uncertainties, currently beyond the 
control of the Department, that have the potential to significantly 
delay the opening date for the repository. I would like to briefly 
summarize the bill's provisions for the committee.
    First, the most important factor in moving the Yucca Mountain 
Project forward is the ability of the Department to have access to the 
Nuclear Waste Fund to ensure adequate funding is available to meet the 
requirements necessary to construct and operate a repository. By making 
a technical budgetary scoring change, the proposed legislation would 
correct a structural budget problem by changing the budgetary treatment 
of the Nuclear Waste Fund fee, from mandatory receipts to discretionary 
offsetting collections equal to annual appropriations from the fund. 
Funding for the Program would still have to be requested by the 
President and Congressional appropriations from the Fund would still be 
required.
    Second, to meet NRC licensing requirements it will also be 
necessary for Congress to approve the permanent withdrawal of the lands 
needed for the operational area of the repository. The bill would 
withdraw permanently from public use approximately 147,000 acres of 
land in Nye County, Nevada. The Department is confident that the 
permanent withdrawal of land would meet the NRC licensing requirement 
for the Yucca Mountain repository and would help assure protection of 
public health and the environment.
    Third, to promote efficient management and disposal of the current 
and projected future inventories of commercial spent nuclear fuel 
located at reactors throughout the United States, the proposed 
legislation would eliminate the current statutory 70,000 metric ton cap 
on disposal capacity at Yucca Mountain and allow for maximum use of the 
mountain's true technical capacity. By eliminating an artificial 
statutory limit and allowing the NRC to evaluate the actual capacity at 
Yucca Mountain, this provision would help provide for safe isolation of 
the Nation's entire commercial spent nuclear fuel inventory from 
existing reactors, including life extensions, and may postpone the need 
for a second repository elsewhere until the next century.
    In addition, the proposed legislation includes a number of 
provisions that would promote prompt consideration of issues associated 
with the Yucca Mountain repository or would address other matters that 
have the potential to cause delays in moving forward with the Yucca 
Mountain Project.
    First, the proposed legislation contains provisions that would 
provide for a more streamlined NRC licensing process by amending the 
licensing process in several respects. In particular, the legislation 
would make clear that an application for construction authorization 
need not include information on surface facilities other than those 
facilities necessary for initial operations. The bill would also 
establish an expedited 1-year schedule and a simplified, informal 
process for the NRC to consider the license amendment for the 
Department to receive and possess nuclear materials as well as for 
other future license amendment actions. The bill would also direct that 
the NRC, consistent with other provisions of the Nuclear Waste Policy 
Act of 1982, need not consider in its environmental review any actions 
taken outside of the geologic repository operations area; this will 
help focus the licensing process.
    Second, the proposed legislation would permit early initiation of 
infrastructure and pre-construction activities at the Yucca Mountain 
site for utility, communications, and safety upgrades, and the 
construction of a rail line to connect the Yucca Mountain site with the 
national rail network prior to receipt of an NRC construction 
authorization for the repository. Construction of repository surface 
and sub-surface nuclear facilities would still require a construction 
authorization from the NRC.
    Third, the proposed legislation includes additional provisions that 
would simplify the regulatory framework for the repository. In 
particular, the legislation would designate the Environmental 
Protection Agency as the appropriate agency to issue, administer, and 
enforce any air quality permits required in connection with the Yucca 
Mountain repository. Material owned, transported and stored in NRC-
licensed containers and NRC-licensed materials at Yucca Mountain would 
also be exempt from Federal, State, and local environmental 
requirements under the Resource Conservation and Recovery Act. The 
intent is to ensure that dual regulatory requirements do not apply to 
the same waste streams, once they are ready to be shipped to a 
repository for disposal. These provisions would simplify the regulatory 
framework for the repository without compromising environmental 
protection or safety.
    Fourth, the proposed legislation would address the use of water 
needed to carry out the authorized functions under the Nuclear Waste 
Policy Act of 1982. This legislation would allow the Department to be 
treated like a private business in requesting water access, resulting 
in non-discriminatory treatment of the Department. The State of Nevada 
would still review and administer water allocation to the Department 
under this provision.
    Fifth, the proposed legislation would address transportation and 
ensure the expedited movement of shipments to Yucca Mountain. In this 
regard, the legislation would provide the flexibility for the DOE to 
regulate the transport of spent nuclear fuel and high-level radioactive 
waste to the repository in the same manner that we currently conduct 
transportation of nuclear weapons. The Department has been transporting 
such nuclear materials safely for many years. In addressing this issue, 
we are not proposing to change in any way our route planning activities 
with State, Tribal and local authorities or how we work with them on 
emergency planning, training, and education. This provision would 
reflect our longstanding commitment to transporting nuclear material in 
a manner that meets or exceeds NRC and Department of Transportation 
requirements for transportation of comparable material. Likewise, it 
would permit continuing our longstanding practice of working with 
State, Tribal and local governments, transportation service providers, 
and other Federal agencies to utilize their resources and expertise to 
the maximum extent practicable.
    Finally, the proposed legislation would promote the licensing of 
new nuclear facilities by addressing the need for a regulatory 
determination of waste confidence by the NRC in connection with 
proceedings for those new nuclear facilities. This provision directs 
the Commission to deem that sufficient capacity will be available to 
dispose of spent nuclear fuel in considering whether to permit the 
construction and operation of a nuclear reactor or a related facility.

                               CONCLUSION

    Nuclear power has been demonstrated to be a safe, reliable, and 
efficient source of power. Enactment of the proposed legislation is 
necessary to allow the Yucca Mountain Project to move forward and to 
advance the Nation's energy independence, energy security, and national 
security objectives. Mr. Chairman, I look forward to working with you 
and the Members of this Committee on this legislation to facilitate the 
construction and operation of the repository and to ensure the 
continued development of safe, clean, and efficient nuclear power in 
this country. I would be pleased to answer any questions at this time.
                                 ______
                                 
       Responses by Edward F. Sproat III to Additional Questions 
                          from Senator Inhofe

    Question 1. Isn't it more cost-effective for taxpayers to have 
commercial nuclear waste transferred to one centralized storage 
location, as in the case of the Waste Isolation Pilot Plant, versus 
having multiple storage sites?
    Response. Yes, in general it is more cost-effective and practical 
to design, license, construct, and operate one storage site.

    Question 2. In addition to passing S. 2610 (a bill to enhance the 
management and disposal of spent nuclear fuel and high-level 
radioactive waste) and S. 2589, the Nuclear Fuel Management and 
Disposal Act, what other legislative actions in addition to those 
mentioned at the hearing can Congress take to help expedite the 
operation date (2017) for Yucca Mountain as you stated in your 
testimony?
    Response. S. 2589 contains all the provisions of the 
Administration's legislative proposal. S. 2610 contains a subset of the 
provisions provided by the Administration. To the extent that 
legislation is passed that addresses all the provisions of the 
Administration's proposal, the Department does not believe any 
additional legislative actions would be necessary to facilitate 
commencement of operations by 2017. Commencing operations by this date, 
however, will be dependent on a number of other factors, such as the 
absence of litigation delays.

    Question 3. The third panel witnesses talked extensively about 
maintaining flexibility in repository development plans. Do you think 
that we should take into account repository development plans that 
maintain flexibility for future generations, and do you believe this is 
important?
    Response. Yes, the Department believes flexibility should be 
maintained for future generations and is designing the repository to 
provide such flexibility. The Nuclear Regulatory Commission has 
specific regulatory requirements for the design of the Yucca Mountain 
repository including the need to demonstrate retrievability of waste 
materials for a minimum of 50 years. In addition, the Department 
currently plans to provide capability to monitor the high-level 
radioactive waste and spent nuclear fuel in the repository for up to 
300 years.
                                 ______
                                 
       Responses by Edward F. Sproat III to Additional Questions 
                         from Senator Voinovich

    Question 1.  Mr. Sproat, as discussed during the hearing, please 
provide for the record a detailed information on the Nuclear Waste 
Fund, explaining what it is, how much was collected, how much was 
spent, how much is there, and whether any of it is committed for 
purposes other than originally intended for.
    Response. Section 302(c) of the Nuclear Waste Policy Act authorizes 
the Nuclear Waste Fund in the U.S. Treasury to consist of all receipts, 
proceeds, and recoveries collected by the Department from utilities 
under contract with the Government for the disposal of their spent 
nuclear fuel and high-level radioactive waste. The fees paid by 
utilities are deposited quarterly into the Nuclear Waste Fund and 
invested in U.S. Treasury securities. By the end of 2005, the Nuclear 
Waste Fund had received $14.276 billion from fees and $10.572 billion 
from interest earnings. The Department has spent $6.576 billion from 
the Nuclear Waste Fund, and the balance of the Fund at the end of 2005 
was $18.272 billion. The Government is not authorized to use funds from 
the Nuclear Waste Fund for any purpose other than as directed in 
section 302(d) and in annual appropriations from the Fund.

    Question 2. You discussed briefly about the Federal Government's 
financial liability associated with DOE's non-performance on the 
existing standard contracts. What are the potential financial 
implications for the Government from continued delay in meeting the 
Federal obligations to deal with used nuclear fuel?
    Response. The amount of damages due utilities is currently a matter 
of litigation. The Department, however, has estimated that the 
Government's liability could be up to $7 billion if the Yucca Mountain 
repository commences operations in 2017. For each year that Yucca 
Mountain is delayed beyond 2017, the Government's liability will 
increase. For example, the Department has estimated that the 
Government's liability could be up to $11 billion if the Yucca Mountain 
repository does not commence operations until 2020.

    Question 3. If the capacity of Yucca Mountain could be expanded as 
suggested by Electric Power Research Institute (EPRI), and advanced 
technologies could be deployed to recycle much of the material in used 
nuclear fuel, is it possible that Yucca Mountain might be the only 
repository the United States will ever need?
    Response. The Administration's legislative proposal would repeal 
the statutory limit of 70,000 MTU on the amount of high-level 
radioactive waste and spent nuclear fuel that can be emplaced in the 
Yucca Mountain repository prior to the construction of a second 
repository. While the Department has not determined the maximum 
physical capacity of the Yucca Mountain site, it believes that, at a 
minimum, that the site can contain all the spent nuclear fuel and high-
level radioactive waste expected to be generated by the current fleet 
of commercial reactors throughout their life time as well as all 
existing Defense waste. If the statutory limit in the Nuclear Waste 
Policy Act is repealed, the Yucca Mountain repository will be the only 
repository necessary in the foreseeable future, even without 
consideration of potential efficiencies resulting from the introduction 
of advanced recycling technologies.

    Question 4. Uncertainties about when Yucca Mountain will be 
licensed to accept fuel have led to considerable interest in interim 
storage options. What authority does DOE currently have for interim 
storage?
    Response. Under Subtitle C of the Nuclear Waste Policy Act, the 
Department has authority to establish a monitored retrievable storage 
(MRS) facility, subject to specific conditions that tie the 
construction and operation of an MRS to the construction and operation 
of the Yucca Mountain Repository. Given those conditions, the 
Department has not pursued the development of an MRS facility since 
such a facility could not commence operation appreciably before the 
Yucca Mountain repository could begin accepting waste.
    Prior to the enactment of the Nuclear Waste Policy Act of 1982 
(NWPA) DOE had authority and continues to have authority, to accept 
spent nuclear fuel in certain circumstances. Section 55 of the Atomic 
Energy Act of 1954, as amended, (AEA) (42 U.S.C. 2075), provides that 
``DOE is authorized to the extent it deems necessary to effectuate the 
provisions of [the Act] to purchase, . . . take, requisition, condemn 
or otherwise acquire any special nuclear material or any interest 
therein.'' The authority under the AEA may be exercised to further any 
of its purposes including international cooperation and nuclear 
nonproliferation, support of research and development in nuclear power, 
and management of the U.S. nuclear defense programs. 42 U.S.C. 2111, 
2112, 2013, 2051(a) and 2152.
    Pursuant to this AEA authority, the Department has accepted and 
stored spent nuclear fuel returned from countries where the United 
States provided the original nuclear fuel assemblies for another 
country's use, under bi-lateral agreements. This is often referred to 
as foreign reactor fuel. DOE has also used this authority to accept for 
research and development purposes small amounts of spent nuclear fuel 
such as parts of the Three Mile Island melted reactor core and other 
damaged spent nuclear fuel. DOE also accepted and now owns commercial 
spent fuel under arrangements made with utilities prior to the 
enactment of the NWPA.
    With enactment of the NWPA, Congress provided a detailed statutory 
scheme for commercial spent nuclear fuel storage and disposal that, by 
its specificity, severely limited the Department's commercial spent 
nuclear fuel storage and disposal options.
    The NWPA did not affect the Department's authority to accept spent 
fuel not covered by the Standard Contract arrangement between utilities 
and the Department established in 1983 after the enactment of the NWPA. 
However, the NWPA limits DOE'S authority under the AEA to accept spent 
nuclear fuel from commercial reactors subject to the Standard Contract 
to the situations specified in the NWPA and, in very limited 
circumstances, to specific research and development activities that 
further the goals of the NWPA. 42 U.S.C. 10199.

    Question 5. The House passed FY 2007 Energy and Water Development 
appropriations bill included $30 million to initiate the process for 
selecting and licensing one or more interim storage sites, subject to 
Congress providing necessary statutory authority. Has the Department 
considered this proposal? Have you considered what legislative 
provisions would be necessary to carry out this direction?
    Response. In the absence of a statutory provision such as that 
proposed by S. 3962, the ``Nuclear Fuel Management and Disposal Act'' 
the Department would be limited to carrying out this direction in 
conformity with Subtitle C of the Nuclear Waste Policy Act.
                                 ______
                                 
 Response by Edward F. Sproat III to a Question from Senator Voinovich 
                           During the Hearing

    Question. My question is: where does the money come from? It has 
not been put into some special investment fund, has it? Or has it?
    Response. The annual fees paid by utilities are deposited quarterly 
into the Nuclear Waste Fund in the U.S. Treasury; funds are invested in 
securities issued by the U.S. Treasury. The Nuclear Waste Policy Act 
directed that the repository program be a full-cost recovery program. 
The receipts and interest of the Fund are intended to pay for all 
Program costs for disposal of spent nuclear fuel.
    The Nuclear Waste Fund is managed by the Office of Civilian 
Radioactive Waste Management. Investment strategies are designed and 
managed to provide sufficient access to liquid assets for the near term 
while maximizing returns on long-term investments. The Nuclear Waste 
Fund is invested in Treasury bills for very short-term Program needs, 
Treasury notes and bonds for short and intermediate Program needs, and 
Treasury zero-coupon bonds for long-term Program requirements. Treasury 
Inflation Protected Securities (TIPS) are also used for intermediate-
term needs.
    The Program's investment strategy is designed to protect against 
fluctuations in interest rates and program costs. By matching the 
values of Program net spending with investment maturities, the effects 
of interest rate changes can be minimized. It is anticipated that the 
Program will need funds from the Nuclear Waste Fund for more than 100 
years, through the end of the repository operations and eventual 
closure.
    Enclosed for your information is the 2006 investment portfolio 
report which is sorted by investment type and maturity date.

[GRAPHIC] [TIFF OMITTED] T7642.001

[GRAPHIC] [TIFF OMITTED] T7642.002

[GRAPHIC] [TIFF OMITTED] T7642.003

[GRAPHIC] [TIFF OMITTED] T7642.004

[GRAPHIC] [TIFF OMITTED] T7642.005

Statement of R. Shane Johnson, Principal Deputy Assistant Secretary for 
               Nuclear Energy, U.S. Department of Energy

    Chairman Voinovich, Senator Carper, and members of the 
subcommittee, it is a pleasure to be here today to discuss the 
Department's activities associated with building new nuclear capacity 
in the United States and expanding the use of nuclear energy around the 
world. As the next generation of nuclear powerplants is designed, 
licensed, and constructed, it is certain that these activities will 
have near- and long-term resource implications for the Nuclear 
Regulatory Commission (NRC). I will defer to Mr. Luis Reyes of the NRC 
who I understand is testifying before you today to present those 
specific impacts. However, I will present the status and projected 
progress of our nuclear programs that will likely form the basis of 
these resource requirements.
    With dozens of new nuclear plants under construction, planned or 
under consideration world-wide, many countries around the world are 
clearly moving forward with new nuclear plants. In the United States, 
we are nearing completion of the initial phase of preparations for a 
new generation of nuclear plants. Through the Nuclear Power 2010 
program and incentives contained in the Energy Policy Act of 2005 
(EPACT 2005), Government and industry are working together to address 
regulatory and financial impediments that the first purchasers of new 
plants face.
    In addition, the Department is committed to addressing the 
fundamental research and development issues necessary to establish the 
viability of next-generation nuclear energy system concepts. 
Successfully addressing the fundamental research and development issues 
of Generation IV system concepts that excel in safety, sustainability, 
cost-effectiveness and proliferation-resistance will allow these 
advanced systems to be considered for future commercial development and 
deployment by the private sector. Expectations for the development, 
demonstration and design, construction and operation of the Next 
Generation Nuclear Plant or NGNP, are clearly outlined in EPACT 2005. A 
decision on whether to proceed beyond the current R&D phase will be 
made in 2011.
    Finally, we are implementing the Global Nuclear Energy Partnership, 
or GNEP, an initiative launched by the Department of Energy in February 
of this year. GNEP is a comprehensive approach to increase global 
energy security. It will seek the expanded use of nuclear power as a 
clean energy resource, while reducing the risk of nuclear 
proliferation.

                           NUCLEAR POWER 2010

    The Nuclear Power 2010 program, launched in 2002, addresses the 
regulatory and financial uncertainties associated with siting and 
building new nuclear plants by working in cost-shared cooperation with 
industry to identify sites for new nuclear powerplants, by developing 
and bringing advanced standardized plant designs to the market, and by 
demonstrating untested regulatory processes. Nuclear Power 2010 is 
focused on Generation III+ reactor technologies, which are advanced, 
light water reactor designs, offering advancements in safety, security, 
and economics over the Generation III designs certified by the NRC in 
the 1990s.
    The Department is currently sponsoring cooperative projects for 
preparation of Early Site Permits (ESP) for three commercial sites. The 
ESP process includes resolution of site safety, environmental, and 
emergency planning issues in advance of a power company's decision to 
build a new nuclear plant. The three ESP applications are currently in 
various stages of NRC review, and licensing decisions are expected by 
the end of 2007.
    In fiscal year 2005, the Department established competitively 
selected, cost-shared cooperative agreements with two power company-led 
consortia to obtain combined Construction and Operating Licenses (COL). 
The Department selected Dominion Energy and NuStart, a consortium of 
ten electric generating companies, to conduct the licensing 
demonstration projects to obtain NRC licenses and operate a total of 
two new nuclear powerplants in the U.S. Dominion is preparing an 
application for the North Anna site in Virginia, and NuStart is 
preparing an application which will use DOE funding to move a COL 
forward on either the Bellefonte site in Alabama or the Grand Gulf site 
in Mississippi. The two project teams involved in these two licensing 
demonstration projects represent power generation companies that 
operate more than two-thirds of all the U.S. nuclear powerplants 
producing electricity today. Both consortia are on track to submit COL 
applications to the NRC in late 2007. Joint efforts will continue to 
complete the necessary design certification steps to support two COL 
applications. Industry is planning for issuance of the NRC licenses by 
the end of 2010. It is possible that a utility decision to build a new 
plant could be announced as early as 2008, with construction starting 
in 2010, and a new plant operational by 2014.
    Already this approach has encouraged power companies from these 
consortia to apply for COLs. Several have specifically stated that they 
are building on work being done in the Nuclear Power 2010 program as 
the basis for their applications. In addition, UniStar, a consortium of 
Constellation, AREVA and Bechtel Power, announced plans to pursue new 
nuclear plants. In June, NRG Energy, Inc. also announced plans to 
pursue construction of two additional reactors at their two-unit South 
Texas Project nuclear power station. Earlier last month, the NRC 
indicated that it expects 19 new combined COL applications for 27 new 
reactors.

               FEDERAL GOVERNMENT RISK MANAGEMENT ACTIONS

    Last year, the President proposed and Congress established the 
Standby Support provisions of EPACT 2005 (section 638) to encourage the 
construction of new advanced nuclear powerplants in the United States 
by addressing regulatory and litigation risks to first ``movers'' of 
these new plants. Under section 638, the Secretary can enter into 
contracts to insure project sponsors against certain delays that are 
outside the control of the sponsors and to provide coverage for up to 
six reactors, but for no more than three different advanced reactor 
designs. The level of coverage is distinguished between the first 
``initial two reactors,'' for which the Secretary will pay 100 percent 
of covered costs up to $500 million per contract and ``subsequent four 
reactors,'' for which the Secretary will pay 50 percent of covered 
costs up to $250 million per contract after an initial 180-day delay.
    I am pleased to report that last month, prior to the first year 
anniversary of EPACT's enactment, the Department issued the final rule 
for the Standby Support program.
    EPACT 2005 contains other key provisions aimed at providing 
incentives to build new nuclear plants. One of these is the creation of 
a production tax credit program for new advanced nuclear generation. 
EPACT 2005 (section 1306) permits a taxpayer producing electricity at a 
qualified advanced nuclear power facility to claim a credit equal to 
1.8 cents per kilowatt-hour of electricity produced for 8 years. The 
provision also specifies a national megawatt capacity limitation of 
6,000 megawatts for which tax credits could be given. The tax credit is 
administered by the Department of Treasury, in consultation with the 
Department of Energy. The Treasury Department recently published 
guidelines for approving these tax credits, allowing us to move ahead 
in this process.
    Lastly, EPACT 2005 (Title 17) authorizes the Secretary of Energy to 
enter into loan guarantees for projects that avoid, reduce, or 
sequester air pollutants or emissions of greenhouse gases and that use 
new and significantly advanced energy technologies, including advanced 
nuclear powerplants. In August 2006, the DOE published Guidelines for 
the Loan Guarantee Program in the Federal Register that specify the 
process by which DOE will solicit and review project proposals. Also in 
August 2006, DOE issued the first of multiple solicitation 
announcements inviting interested parties to submit project proposals. 
Although the first solicitation does not address nuclear projects, 
utilities interested in building new nuclear powerplants will be 
eligible for future loan guarantee solicitations, which will help them 
lower the cost of borrowing the substantial up-front capital associated 
with these major projects. Combined with delay risk insurance, loan 
guarantees will reduce uncertainty and thereby reduce costs of 
obtaining investment capital for initial sponsors of new nuclear 
plants.

                     NEXT GENERATION NUCLEAR PLANT

    EPACT 2005 (sections 641 through 645) establishes expectations for 
research, development, design, construction, and operation of a 
prototype nuclear plant which will provide electricity and/or hydrogen.
    These EPACT provisions establish two distinct phases for the 
project. In Phase I, to be completed by 2011, DOE is directed to select 
the hydrogen production technology, develop initial reactor design 
parameters, and, jointly with the NRC, develop a licensing strategy for 
the NGNP. Phase I is the research and planning part of the initiative 
and it is the phase in which the Department is currently engaged. EPACT 
2005 also directs the Department to complete, as part of Phase II, the 
design, licensing and construction of the NGNP by 2021.
    This year, we will begin working in earnest with the NRC to develop 
a licensing strategy for the technology, which pursuant to EPACT 2005 
must be submitted to Congress by August 8, 2008. We have allocated $2 
million of our Fiscal Year 2007 budget towards this interagency 
collaboration. Licensing a prototype reactor by the NRC and obtaining 
certification of the nuclear system design will present a significant 
challenge and may be very difficult to accomplish in the timeframe 
contemplated. In developing a licensing strategy, DOE and NRC will 
examine mechanisms that are best suited for making information 
available to support a license application and for evaluating that 
information. In addition, the strategy will address staffing resources 
needed to support the licensing of both NGNP and new commercial 
reactors.

                   GLOBAL NUCLEAR ENERGY PARTNERSHIP

    Partnerships between the U.S. Government, industry, and other 
nations can help to increase the use of nuclear power throughout the 
world. Cooperation and cost-sharing with other countries is also vital 
to ensure that other nations use nuclear power safely and securely. 
That is the basis of GNEP launched earlier this year by the Department 
and included in President Bush's Advanced Energy Initiative. This new 
initiative is based on a simple principle: energy and security can go 
hand in hand.
    GNEP is a comprehensive strategy to lay the foundation for expanded 
use of nuclear energy in the United States and the world by 
demonstrating and deploying new technologies that recycle nuclear fuel, 
significantly reduce waste, and help to address proliferation concerns.
    In addition to developing separations, fuel fabrication, and 
reactor technologies, we also propose to create an approach which 
provides fuel and reactors that are appropriately sized for the energy 
requirements of countries in need of nuclear energy. We also seek to 
encourage the future provision of fuel from fuel cycle nations in a way 
that allows new nations to enjoy the benefits of abundant sources of 
clean, safe nuclear energy in exchange for their commitment to forgo 
enrichment and reprocessing activities, to help address nuclear 
proliferation concerns. We have been working with other advanced 
nuclear nations to build consensus on productive approaches, incentives 
and safeguards. If we expect countries to forgo fuel cycle activities, 
they should be assured a reliable access to fuel which could be backed 
by designated supplies, governmental entities, and international bodies 
such as the International Atomic Energy Agency (IAEA).
    Along with promoting the benefits of nuclear energy, one of GNEP's 
goals is to develop and demonstrate advanced technologies with enhanced 
proliferation-resistance that are incorporated into the processing of 
spent nuclear fuel and also to reduce the amount of nuclear wastes 
requiring permanent geological disposal.
    As you know, the Department is pursuing the development and 
deployment of integrated spent fuel recycling facilities in the United 
States. These are technologies that do not result in a separated 
plutonium stream. Specifically, the Department proposes to develop and 
deploy the uranium extraction plus (UREX+) technology to separate the 
usable materials contained in spent fuel from the waste products. We 
also propose to deploy a fast reactor capable of consuming those usable 
products from the spent fuel while producing electricity.
    Based on international and private sector response to GNEP, we 
believe there may be advanced technologies available to recycle used 
nuclear fuel ready for deployment in conjunction with those currently 
under development by DOE. In light of this information, DOE is 
investigating the feasibility of these advanced recycling technologies 
by proceeding with commercial demonstrations of these technologies. The 
technology, the scale and the pace of the technology demonstrations 
will depend in part on industry's response, including the business 
aspects of how to bring technology to full scale implementation.
    Last month, DOE issued two requests for Expressions of Interest 
from domestic and international industry, seeking to investigate the 
interest and capacity of industry to deploy an integrated spent fuel 
recycling capability consisting of two facilities:
    <bullet> A Consolidated Fuel Treatment Center, capable of 
separating the usable components contained in light water spent fuel 
from the waste products;
    <bullet> An Advanced Burner Reactor, capable of consuming those 
usable products from the spent fuel while generating electricity;
    The Department asked industry to provide input on the scale at 
which the technologies should be proven. Ultimately, as in the initial 
plan reported to the Congress in May, the Department ultimately seeks 
the full commercial-scale operations of these advanced technologies. It 
is premature, however, to say exactly what form or size the recycling 
facility will take until we analyze important feedback recently 
received from industry.
    The integrated recycling facilities would include process storage 
of spent fuel prior to its recycling, on a scale proportionate to the 
scale of recycling operations. A third facility, the Advanced Fuel 
Cycle Facility, would be designed and directed through the Department's 
national laboratories and would be a modern state-of-the-art fuels 
laboratory designed to serve the fuels research needs to support GNEP.
    We are now in the process of reviewing industry's response to last 
month's request for Expressions of Interest. Based on our limited 
review thus far, I can tell you that industry has responded positively 
and we look forward to working with industry.
    In addition, last month the Department issued a Financial 
Assistance Funding Opportunities Announcement, seeking applications by 
September 7, 2006, from private and/or public entities interested in 
hosting GNEP facilities. Specifically, the Department will award grants 
later this fall for site evaluation studies. Congress made $20 million 
available [PL 109-474, FY 2006 Energy and Water Development 
Appropriations Bill], with a maximum of $5 million available per site. 
The information generated from these site evaluation studies may be 
used in the preparation of National Environmental Policy Act (NEPA) 
documentation that will evaluate potential environmental impacts from 
each proposed GNEP facility.
    Except for those facilities specifically identified in section 202 
of the Energy Reorganization Act, DOE regulates facilities which it 
operates or that are operated by contractors on DOE's behalf. DOE would 
expect that any GNEP facilities be designed, constructed, and operated 
in a manner suitable for NRC licensing and the application of IAEA 
safeguards, thereby facilitating the eventual commercialization of 
advanced recycling technologies.
    We view GNEP and the Yucca Mountain repository as complementary 
endeavors. Under any scenario, the Yucca Mountain repository will be 
needed for legacy commercial spent fuel (that is, spent fuel already 
generated or generated in the future for which recycling capacity is 
not reasonably available), waste material resulting from recycling, and 
DOE spent fuel and defense high level waste.
    If successful, GNEP will greatly expand the supply of affordable 
nuclear power around the world, while enhancing safeguards that help to 
enhance proliferation-resistance and assuring the availability of Yucca 
Mountain for generations to come.

                               CONCLUSION

    As I describe in my testimony, the Department has numerous 
ambitious and concurrent initiatives underway which pave the way for 
the resurgence of nuclear power in the United States and the world. 
Each of these initiatives carries with it its own set of licensing 
issues and requirements, albeit on varying implementation schedules. 
NRC's ability to fulfill their licensing role in a timely and effective 
manner is a critical requirement for the successful resurgence of 
nuclear power in the United States and around the world.
    Thank you. This concludes my formal statement. I would be pleased 
to answer any questions you may have at this time.

                               __________
  Statement of Luis A. Reyes, Executive Director of Operations, U. S. 
                     Nuclear Regulatory Commission

                              INTRODUCTION

    Mr. Chairman and Members of the Committee, it is a pleasure to 
appear before you today to discuss the U.S. Nuclear Regulatory 
Commission's (NRC's) capability to regulate long-term and short-term 
spent nuclear fuel storage and disposal. Specifically, I plan to 
address some of the national spent fuel management strategies that are 
being considered in S. 2589, the ``Nuclear Fuel Management and Disposal 
Act;'' S. 2610, a bill ``to enhance the management and disposal of 
spent nuclear fuel and high-level radioactive waste, and for other 
purposes;'' and section 313 of H.R. 5427, the ``Energy and Water 
Development Appropriations Act, 2007.'' I also plan to discuss some of 
the implications of the Global Nuclear Energy Partnership.
    It is important to make clear at the outset that, because of the 
NRC's role in the regulation of spent nuclear fuel and the potential 
application for a high-level radioactive waste repository at Yucca 
Mountain, Nevada, the commission has not taken a position on most of 
the provisions in these legislative proposals. Therefore, I would like 
to focus on the impact the following proposals would have on the NRC.

                            INTERIM STORAGE

    Spent fuel storage and transportation are and can be accomplished 
both safely and securely, consistent with the current regulatory 
framework, regardless of the number of sites and their locations. The 
NRC has stated in its Waste Confidence Decision that, if necessary, 
spent fuel generated in any reactor can be stored safely and without 
significant environmental impact in its spent fuel storage pool or at 
either on-site or off-site interim storage facilities for at least 30 
years beyond the licensed operational life of the reactor. In general, 
the Commission concluded that, if stored properly, spent fuel presents 
a low risk to the public during normal operation or under potential 
credible accident conditions and can be stored safely in either wet or 
dry storage systems without significant environmental impact for at 
least 100 years.
    It is important to note that the threat of sabotage has always been 
a factor in the design and licensing of spent fuel storage facilities. 
Following the September 11, 2001 terrorist attacks, the NRC issued 
Orders to licensees to implement additional security measures, and 
undertook a comprehensive reassessment of the security of commercial 
nuclear facilities including those for spent fuel storage. Since 9/11, 
NRC has issued Orders to licensees to implement additional security 
measures. Dry spent fuel storage casks are robust structures, which are 
highly resistant to significant damage, and we are confident that 
storage of spent fuel in dry casks remains a safe and secure spent fuel 
management strategy. Spent fuel pools are strong structures constructed 
of very thick steel-reinforced concrete walls with stainless steel 
liners located inside protected areas. The NRC's domestic safeguards 
program is focused on physically protecting and controlling spent 
nuclear fuel against sabotage, theft, and diversion.
    The NRC supports efforts to address interim storage issues in a 
timely manner. Nuclear power plants need to increase their spent fuel 
storage capacity to support plant operations. In order to maintain 
operational capability in the spent fuel pool, including full core off-
load capability, spent fuel must periodically be moved to dry cask 
storage. There are currently 43 licensed independent spent fuel storage 
installations (ISFSIs), and we expect in the next few years that this 
number will grow to over 50, as more power plants contend with filled 
spent fuel pools. The 43 current sites have successfully loaded and 
stored over 800 casks. An exceptional safety record has been achieved 
using dry cask storage technology.
    Safety and security are the key elements in a comprehensive spent 
fuel management strategy. We must also be cognizant of the need for 
efficiency and effectiveness in every element of spent fuel handling, 
storage, and transport systems. The NRC believes that instituting 
canister and infrastructure standards will make storage and 
transportation both safer and easier, facilitating interoperability 
among handling and loading activities at different reactors and ISFSIs. 
Standards will also improve the ease with which these activities can be 
licensed. Canister and infrastructure standards should be developed 
with input from industry, taking advantage of lessons learned from 
previous designs.
    The legislative proposal in H.R. 5427, as approved by the Senate 
Committee on Appropriations, includes new consolidation and preparation 
(CAP) facilities as part of a new national spent fuel management 
strategy. This proposal would significantly affect the NRC's spent fuel 
storage oversight program and resource needs. Specifically, H.R. 5427 
calls for a high number of new storage facilities to be reviewed and 
licensed by NRC in a very short time span. Currently, the NRC has 
neither the monetary resources nor the necessary employee resources to 
support the technical review and adjudication of a large number of 
concurrent storage license applications as considered in H.R. 5427. 
Also, the timeframes in the draft legislation, which must allow for 
license preparation by the applicant, environmental and safety reviews 
by NRC and completion of associated hearings before the Atomic Safety 
and Licensing Board Panel, are very short and likely not achievable.
    The NRC has reviewed the proposed legislation and believes that the 
existing regulatory infrastructure could accommodate the alternative 
approaches outlined in H.R. 5427. Although the NRC believes that it may 
be able to review and license a large number of new facilities 
anticipated in H.R. 5427 concurrently, the following items would be 
necessary prerequisites for success: sufficient funding; receipt of 
complete, high-quality license applications; and considerably more time 
to review and adjudicate the applications. NRC believes that 
centralized storage or storage at multiple sites in different locations 
can be achieved safely, consistent with our regulatory system. One must 
approach spent fuel management as an integrated system, balancing the 
very small risks associated with storage and transportation components. 
The Commission is open to working with our stakeholders in support of a 
systematic and integrated approach that is safe, timely, and efficient.

                             TRANSPORTATION

    The NRC believes that the current, well-established transportation 
regulatory system is protective of public health and safety. Spent 
nuclear fuel has been safely transported in the United States for more 
than 30 years. There has never been an accident involving the 
transportation of spent fuel resulting in a radiological release or 
death or injury from radiation. The National Academy of Sciences 
recently completed a 3-year study that concluded that the radiological 
risks of spent fuel transportation are low and well understood and that 
the existing regulations are adequate to ensure safety.
    Any of the changes to a national spent fuel management strategy 
that are being considered (such as in S. 2589, S. 2610, and H.R. 5427) 
will involve shipping spent fuel. Federal regulation of spent fuel 
transportation is shared by the U.S. Department of Transportation (DOT) 
and the NRC. Generally, NRC does not regulate the U.S. Department of 
Energy's (DOE's) shipments of radioactive material; however, the 
Nuclear Waste Policy Act requires DOE to utilize NRC-certified casks 
for spent fuel shipments to a repository and to follow NRC's advance 
notification requirements. The Commission has reviewed and certified a 
number of package designs which could be used to transport spent fuel. 
Provisions of S. 2589, S. 2610, and H.R. 5427 may affect the 
transportation roles of DOE and DOT, but do not appear to affect the 
NRC role to certify casks as specified in the Nuclear Waste Policy Act. 
Section 313(c) of H.R. 5427 calls for licensing of DOE's spent fuel 
shipments by NRC and DOT. This means that NRC's physical protection 
requirements would be applicable to all of the DOE's shipments of spent 
nuclear fuel, and to this extent H.R. 5427 will increase NRC's 
responsibilities.
    The NRC believes that the existing transportation regulatory 
infrastructure can accommodate the various legislative actions being 
considered. The transportation aspects of the various options and 
facilities do not present new or inherently different technical 
challenges. New transportation packages will need to be designed and 
certified to address: DOE initiatives on transport, aging, and disposal 
canisters; new types of spent fuel; or existing spent fuel that is not 
covered by current designs. As with the other topics addressed in this 
testimony, the NRC's ability to complete this work will depend upon 
sufficient appropriations and the submittal of complete, high quality 
applications.

                                DISPOSAL

    The NRC understands the importance of addressing disposal of high-
level radioactive waste in a manner that is both safe and timely. The 
NRC has a record of moving responsibly and promptly to meet its 
obligations under the Nuclear Waste Policy Act. To prepare for 
conducting an independent safety review of a Yucca Mountain 
application, the Commission continues to conduct pre-license 
application activities aimed at providing guidance so that DOE can 
provide a high quality application. NRC is confident that we will be 
ready to receive an application if submitted in 2008 as is currently 
proposed by DOE. We are also confident that we will reach a timely 
decision on the application provided that the application is complete 
and of high-quality.
    The NRC offers the following comments on provisions in the proposed 
legislation, S. 2610, that could affect the timing of the NRC's review 
of a DOE application for an authorization to receive and possess spent 
nuclear fuel and high-level radioactive waste at Yucca Mountain. The 
proposed legislation would require the NRC to reach a final decision on 
receipt and possession within one year (with the possibility of a 6-
month extension). This proposed requirement does not give the NRC 
sufficient time to complete its necessary proceedings. First, the NRC 
cannot complete both its safety review and the adjudicatory proceeding 
in 1 year. In particular, NRC will need to conduct a hearing. Even 
under the informal hearing process proposed in S. 2610, the NRC would 
need to adjudicate issues raised by participants that are admitted as 
contentious by the licensing board. It is difficult to predict the 
amount of time it will take to complete the review and adjudicate 
issues in controversy without knowing the scope and number of issues 
that will require adjudication as well as the number of parties 
involved. Second, the proposed legislation's provision regarding 
surface facilities could be read to provide for staged consideration of 
surface facilities. In this case, the NRC would review certain 
facilities during the construction authorization phase and other 
facilities during the later receipt and possession phase. Facilities 
that otherwise could have been reviewed in the construction 
authorization phase might be shifted to the receipt and possession 
phase, increasing the scope of review for that phase despite the 
reduced time allowed for that review.
    S. 2589 and S. 2610 also contain a provision requiring the NRC, in 
deciding whether to permit the construction or operation of a nuclear 
reactor or any related facilities, to deem, without further 
consideration, that sufficient capacity will be available in a timely 
manner to dispose of spent nuclear fuel and high-level radioactive 
waste. H.R. 5427 contains a similar provision. The NRC does not object 
to these provisions of the legislation.

                 THE GLOBAL NUCLEAR ENERGY PARTNERSHIP

    I would like to turn now to another facet of integrated high-level 
radioactive waste management, the Global Nuclear Energy Partnership 
(GNEP). The NRC has been meeting regularly with DOE to keep informed of 
and discern the NRC's role in the GNEP program as it unfolds. The DOE 
recently announced its interest in partnering with private industry in 
the development and deployment of a spent fuel separations/fuel 
fabrication facility (called the Consolidated Fuel Treatment Center 
(Center)) and an Advanced Burner Reactor (ABR). The DOE has indicated 
that its goals are to have the Center operational in 2018 and the ABR 
operational in 2020.
    If the Center is considered to be a commercial facility, rather 
than a DOE facility, and if the ABR is a commercial facility or a 
demonstration reactor of the type described in section 202(2) of the 
Energy Reorganization Act, it will require the NRC to be involved in 
GNEP much sooner than originally expected. DOE had previously planned 
to operate smaller scale demonstration facilities prior to developing 
commercial scale facilities. If the NRC is to have licensing 
responsibilities, and the Center and ABR are to be completed and ready 
for operation according to DOE's schedule, the NRC could receive a 
Center application as early as 2009 or 2010. To that end, the NRC must 
make changes now to ensure that our regulations and guidance documents 
provide appropriate stability and predictability in our regulatory 
reviews.
    Existing NRC regulations have been tailored over the years to be 
efficient for licensing the technologies commonly used in the United 
States (e.g., light-water reactors, uranium fuel facilities). Although 
these regulations could be used to license both the Center and the ABR, 
both reprocessing and advanced burner technologies (such as liquid 
metal-cooled reactors) have significantly different safety and 
technical considerations than light-water reactors. To facilitate the 
technical review and ensure a timely licensing process for these new 
technologies, NRC will need to revise existing regulations or develop 
new regulations and associated guidance documents.
    In preparing to license these facilities and new technologies, NRC 
would need to begin recruiting for new employees, while developing 
expertise among existing staff in separations and advanced reactor 
technologies. This is no small task given the limited number of 
qualified individuals in this field and the significant hiring efforts 
already being undertaken by the NRC to meet its obligations related to 
new reactor applications.
    Sufficient funding is needed to support regulatory infrastructure 
activities and increased staffing for GNEP. Funding for the NRC to 
develop the regulatory infrastructure for the Center and ABR in FY 2007 
should be provided from the General Fund, because currently there are 
no licensees to support fee-recovery of the funds and because the NRC 
cannot be reimbursed for licensing activities that it is required to do 
by statute.

                               CONCLUSION

    The NRC fully understands the importance of addressing the storage, 
transportation and disposal of high-level radioactive waste in a 
systematic and integrated manner that is safe, timely, and efficient. 
We would urge the Congress to assure that sufficient appropriations be 
made available to adequately fund regulatory infrastructure activities 
and increased staffing prior to the receipt of license applications 
initiating licensing activities. Provided sufficient resources and 
staffing levels are maintained and appropriate time is given to the 
Agency to conduct the necessary technical reviews and adjudications, we 
believe that we can reach decisions on the relevant applications in a 
timely fashion, assuming high-quality license applications are 
received.
    On behalf of the Commission, I appreciate the opportunity to 
testify today and look forward to working with you on this legislation.
                                 ______
                                 
Response by Luis A. Reyes to an Additional Question from Senator Inhofe

    Question. Mr. Reyes stated that the NRC is prepared to receive 19 
Combined Construction and Operation License (COLs) applications between 
2007 and 2009. The projected number of COL applications has increased 
from about 12 to 19 in the space of 6 months. As of June, 2006 NRC 
staff informed my staff that the NRC planned on reviewing 2 COL 
applications, completing one design certification and completing five 
Early Site Permits (ESPs) in Fiscal year 2007 (this includes the $40 
million expected in the Fiscal year 2007 Appropriation Bill). Given the 
already ambitious schedule for Fiscal Year 2007, could you please 
provide us with your budget projects for Fiscal Year 2008 and Fiscal 
Year 2009 addressing any additional resources that might be needed to 
address the increase in COL applications?
    Response. Currently, the nuclear industry has indicated that it 
expects to submit at least 20 combined license applications to the NRC 
during FY 2008 and FY 2009. Our budget was developed with the 
assumption that the first 13 of these applications will arrive in FY 
2008. In addition to beginning the review of these 13 COL applications 
in FY 2008, the NRC expects to review three early site permit 
applications and two standard design certification applications. The 
NRC's FY 2007 appropriation, as approved by the House of 
Representatives in H.R. 5427, includes $133 million for new reactor 
licensing activities. Our preliminary estimate for new reactor 
licensing activities in FY 2008 is $230-$250 million. At this time the 
FY 2009 resource estimate for new reactor licensing activities is 
expected to remain relatively level with the FY 2008 resource estimate, 
or increase slightly depending on the timing and the number of new 
applications submitted for review.
                                 ______
                                 
    Responses by Luis A. Reyes to Additional Questions from Senator 
                                Jeffords

    Question 1. Several pending pieces of legislation include waste 
confidence provisions. In your testimony you state that the NRC would 
not object if Congress acted to deem that sufficient capacity would 
exist in a timely fashion to store nuclear waste at Yucca Mountain, or 
other proposed sites. Is it correct that the NRC has made this 
determination before in other cases, such as the proposed private fuel 
storage facility in Utah?
    Response. The NRC made its current waste confidence determination 
by rule in 1990, and confirmed the rule in 1999. The determination, 
which is codified in 10 CFR 51.23, applies to licensing and license 
amendment determinations made with regard to reactors and initial 
licensing and license amendment determinations made with regard to 
independent spent fuel storage installations (ISFSIs). Therefore, it 
has been applied by the NRC to several licensing cases, including, for 
example, that for the ISFSI at the Humbolt Bay nuclear power plant. In 
the Private Fuel Storage (PFS) case, NRC cited the waste confidence 
rule in the final environmental impact statement and elsewhere, in 
considering whether spent fuel would remain at the PFS site 
indefinitely; in PFS, however, NRC did not need to rely on the waste 
confidence rule because utilities' contracts with PFS require them to 
take back their spent fuel before the PFS license is terminated.
    NRC understands that several pending pieces of legislation would 
direct the NRC to deem, without further consideration, that sufficient 
capacity will be available in a timely manner to dispose of the spent 
fuel and high-level waste from the operation of new reactors and 
ISFSIs. As we stated in our response to Senator Bingaman's post-hearing 
question from the August 3, 2006, hearing before the Senate Committee 
on Energy and National Resources on ``S. 2589, the Nuclear Fuel 
Management and Disposal Act,'' such legislation is consistent with the 
NRC's current position that it has confidence that spent fuel and high-
level waste produced by nuclear facilities can be both safely disposed 
of and safely stored until a permanent geologic repository is 
available. Spent fuel is being managed safely today and the NRC has 
every expectation that it can be and will be managed safely in the 
future with at least the same level of protection. Therefore, given 
that Congress has the authority to impose limits on environmental 
reviews, and the Commission has confidence in the future safety of 
stored spent fuel, the NRC has no objection to such waste confidence 
provisions in pending legislation.

    Question 2. If Congress acts to set waste confidence, I want to 
understand the effect on the Commission. The NRC has invested resources 
to make these decisions. If Congress acts to remove this NRC decision 
making responsibility, what is effect on NRC resources, personnel, and 
Commission's workload?
    Response. If waste confidence were to be established by statute, 
the effect on the Commission's resources would depend upon whether 
there is any further need for the Commission to revisit its 1990 waste 
confidence findings. In 1999, the Commission stated that it would 
consider undertaking a comprehensive reevaluation of the waste 
confidence findings only when the impending repository development and 
regulatory activities run their course or if significant and pertinent 
unexpected events occur, raising substantial doubt about the continuing 
validity of the waste confidence findings. If Congress does not set 
waste confidence, this is a decision that the Commission could again 
address as it has before in 1984 and 1990. The agency has not budgeted 
resources to reevaluate its waste confidence decision. The resources 
needed for such an undertaking would likely be equivalent to those 
needed for a major rulemaking (approximately four full-time equivalent 
employees and $75,000 per year over a 2-year period).

    Question 3. If Congress did not set waste confidence, is this a 
decision that the Commission could continue to make as it has before?
    Response. If waste confidence were to be established by statute, 
the effect on the Commission's resources would depend upon whether 
there is any further need for the Commission to revisit its 1990 waste 
confidence findings. In 1999, the Commission stated that it would 
consider undertaking a comprehensive reevaluation of the waste 
confidence findings only when the impending repository development and 
regulatory activities run their course or if significant and pertinent 
unexpected events occur, raising substantial doubt about the continuing 
validity of the waste confidence findings. The resources needed for 
such an undertaking would likely be equivalent to those needed for a 
major rulemaking. If Congress does not set waste confidence, this is a 
decision that the Commission could again address as it has before in 
1984 and 1990.

    Question 4. I want to make certain I understood a point you made in 
your testimony. You stated that the NRC has reviewed the interim 
storage language in the 2007 Senate Energy and Water Appropriations 
bill. You also said that the existing regulatory infrastructure is 
sufficient to implement that language should it become law. So the 
rules don't need to be modified, but you would still need additional 
people, sufficient funds, and time to implement this change if it 
became law?
    Response. The NRC has the trained staff, regulatory infrastructure, 
and guidance to review license applications for spent fuel stored away 
from reactors in an independent spent fuel storage installation 
(ISFSI). Currently, the NRC's approved budget for fiscal year 2007 does 
not provide the monetary resources or the necessary employee resources 
to support the technical review and adjudication of a large number of 
concurrent storage license applications as considered in H.R. 5427. 
Thus, a sudden influx of a large number of new applications for ISFSIs 
could not be handled without a supplemental appropriation for 
additional staff and resources. Additional time would also be 
necessary.

    Question 5. Is it also the case that the NRC does not have capacity 
to evaluate commercial reprocessing plants and does not have an 
approved storage container for reprocessing waste?
    Response. Yes, to conduct an efficient and effective licensing 
review of commercial reprocessing plants, the NRC would need to hire 
additional specialized staff and modify its regulations.
    The NRC regulations that would apply to a reprocessing facility are 
the same regulations that were used for licensing reactors decades ago. 
They would not necessarily address all commercial reprocessing facility 
safety issues and, conversely, are likely to contain requirements that 
are not applicable to a reprocessing facility. Consequently, licensing 
of a commercial reprocessing facility under these regulations would 
present significant challenges to the applicant and to the NRC.
    The NRC has a limited number of people who have experience in the 
licensing of reprocessing facilities, either with the NRC or based on 
previous work in industry. In addition, the NRC has recent applicable 
licensing experience with technologies that are similar to the types of 
recycling processes under consideration for Global Nuclear Energy 
Partnership (GNEP) (e.g., UREX+ or COEX processes). However, we still 
need additional expertise in several specialty fields in order to 
conduct an efficient review of these advanced technologies. For 
example, NRC needs chemical engineers with a detailed knowledge of 
reprocessing, actinide chemists, and nuclear engineers. The NRC has 
already started looking for this type of experience in making hiring 
decisions for open positions and have identified some strong 
candidates. In addition, the NRC has knowledge management efforts 
underway that will help transfer applicable knowledge from the experts 
we do have in these areas to the less experienced staff.
    The NRC has not approved any storage containers for reprocessing 
waste. The NRC has approved storage containers for spent nuclear fuel 
and irradiated materials generated by operating nuclear power plants.
                                 ______
                                 
          Response by Luis A. Reyes to an Additional Question 
                         from Senator Voinovich

    Question. In his testimony, Mr. Sproat of DOE stated that he is 
highly confident that DOE will have a high-quality, docketable license 
application for Yucca Mountain repository submitted to the NRC no later 
than June 30, 2008. For the record, can you assure this Committee that 
the NRC is equally confident in meeting the statutory deadline for 
completing its licensing proceeding for Yucca Mountain?
    Response. Provided adequate resources are available, NRC is highly 
confident that it can meet its statutory obligations concerning the 
length of time it has to review a license application. The licensing 
procedure's schedule, however, will rely heavily upon receiving a 
complete, high-quality application from DOE. Also, as in any license 
application review and associated hearings, unanticipated events could 
result in delays. For example, submission of additional information, 
changes to the license application, and the number and type of 
contentions admitted to the hearings could all impact the review and 
hearing schedule. A complete, high-quality application would minimize 
the impact of these types of issues on schedule and budget, and we 
would make every effort but there is no way to give assurance on how 
these issues will affect the ability for NRC to meet its statutory 
deadline.

                               __________
   Statement of Admiral Frank L. ``Skip'' Bowman, U.S.N. (Retired), 
              President and CEO, Nuclear Energy Institute

    Mr. Chairman, Ranking Member Carper, and members of the 
subcommittee, I am Admiral Frank L. ``Skip'' Bowman, U.S. Navy 
(retired). I serve as president and chief executive officer of the 
Nuclear Energy Institute. Thank you for this opportunity to express the 
nuclear energy industry's views on legislation to address the 
management of used nuclear fuel, and in particular the role of the 
Nuclear Regulatory Commission (NRC).
    In his 2006 State of the Union address, President Bush affirmed the 
Nation's commitment to ``safe, clean nuclear energy'' as part of a 
diverse portfolio that will meet America's future electricity needs. A 
long-term commitment to nuclear energy will make the United States more 
energy independent and ensure the diversity of our energy sources. We 
appreciate the leadership of this subcommittee in continued strong 
oversight of the NRC and its key role in enacting the Energy Policy Act 
of 2005. This legislation encourages diversity of energy sources, 
including such emission-free sources of electricity as nuclear energy.

                                SUMMARY

    I will focus my testimony on the following key issues:
    <bullet> First, The Department of Energy (DOE) must make visible 
and measurable progress in implementing an integrated national used 
nuclear fuel management strategy. The Yucca Mountain, Nevada, 
repository is a critical component of any such integrated strategy. 
This progress will help ensure that the expanded use of nuclear energy 
will play a crucial role in our Nation's strategy for meeting growing 
electricity demand.
    <bullet> Second, S. 2610 can play a key role in addressing the 
challenges facing the DOE and NRC on the Yucca Mountain project, as 
well as help set the stage for new nuclear plants.
    <bullet> Third, Congress must take additional actions (beyond S. 
2610) to support the removal of used fuel from commercial nuclear plant 
sites as soon as possible, together with steps to accelerate 
development of new technological approaches that would substantially 
benefit disposition strategies. In formulating this policy, the 
Administration and Congress must consider potential impacts on NRC in 
terms of resources and capability, and make sure they don't detract 
from the Agency's current effort in the new reactor licensing arena.
   nuclear energy must play a key role in our nation's energy future
    The Nation's energy portfolio must include clean, reliable and 
affordable energy sources available today, such as nuclear energy. 
Nuclear energy offers several unique advantages. It is the only 
expandable base load energy source that does not emit carbon or other 
greenhouse gases into the atmosphere during operation. Nuclear energy 
safely and reliably provides price stability for electricity customers 
as the prices for fossil fuels fluctuate. It also provides exciting new 
opportunities in areas such as hydrogen production and plug-in hybrid 
automobiles. Although our Nation must continue to employ a mix of fuel 
sources for generating electricity, we believe it is important that 
nuclear energy maintain at least its current 20 percent contribution to 
U.S. electricity production. Maintaining that level of production will 
require construction of a significant number of new nuclear plants 
beginning in the next decade. There is strong, bipartisan support for a 
continuing significant role for nuclear power. More than two thirds of 
the public supports keeping nuclear energy as a key component of our 
energy portfolio. Many in the environmental community recognize and 
endorse the role that nuclear energy can play in controlling greenhouse 
gas emissions.
    Recently, a new coalition of organizations and individuals has been 
formed to educate the public on nuclear energy and participate in 
policy discussions on U.S. energy issues. The Clean and Safe Energy 
coalition--co-chaired by Greenpeace co-founder Patrick Moore and former 
Environmental Protection Agency Administrator and New Jersey Governor 
Christine Todd Whitman--includes business, environmental, labor, health 
and community leaders among its more than 200 members.

                PROGRESS MUST BE MADE ON YUCCA MOUNTAIN

    Although the industry shares the frustration of many members of 
Congress with the pace of progress on the Yucca Mountain repository 
program, we are encouraged by the leadership and management recently 
provided to the program by Energy Secretary Samuel Bodman, Deputy 
Secretary Clay Sell and new Director of the Office of Civilian 
Radioactive Waste Management Edward Sproat.
    They are leading the transition from a purely scientific program, 
focused on site characterization and site approval at Yucca Mountain, 
to one that is preparing to enter a rigorous Nuclear Regulatory 
Commission licensing process. DOE is also adopting industry best 
practices to ensure that it will submit a high-quality application to 
the NRC. It plans to include in this application a revised surface 
facility design that will handle fuel in standardized multipurpose 
canisters. Using multipurpose transportation, aging and disposal (TAD) 
canisters in combination with associated surface facilities will reduce 
the need to handle used fuel at Yucca Mountain and increase safety. It 
is important that DOE complete these efforts, file a high-quality 
repository license application in a timely manner and, ultimately, 
complete the transition to a design, engineering and construction 
project.
    The nuclear industry is encouraged by the ambitious schedule 
announced by the department on July 19 for submission of the license 
application by June 30, 2008, and the ``best-achievable'' construction 
schedule that could have the repository begin receipt of used fuel in 
March 2017. The industry encourages DOE to submit the application as 
soon as possible to facilitate an expeditious NRC review.
    Although we welcome the department's determination to meet this 
``best-achievable'' schedule, it is important to recognize that it 
depends on several factors, most of which are outside the department's 
direct control. These include:
    <bullet> congressional appropriations consistent with 
administration requests;
    <bullet> an NRC construction authorization decision consistent with 
the timelines contained in the Nuclear Waste Policy Act; NRC must be 
provided with the necessary resources and appropriate management focus 
to meet these timelines, while also considering license applications 
for new nuclear plants and potential fuel cycle facilities. We are 
confident that this Committee will provide the oversight and direction 
to see that this can be accomplished.
    <bullet> the length and outcome of any derivative litigation;
    <bullet> obtaining any necessary Federal or State authorizations or 
permits for the repository and the transportation system;
    <bullet> the department's achieving a nuclear culture consistent 
with that required of any successful NRC licensee; and, critically,
    <bullet> enactment of the Nuclear Fuel Management Disposal Act.
    Failure to take legislative action will seriously jeopardize 
progress toward managing the country's used fuel. Delays in some cases 
will prevent the repository's operation by 2017.

     S. 2610 SUPPORTS NUCLEAR POWER'S FUTURE ROLE IN OUR NATIONAL 
                            ENERGY STRATEGY

    The industry strongly supports S. 2610, since it includes those 
provisions of the comprehensive legislative proposal submitted by the 
Administration that relate to issues within this committee's 
jurisdiction. These provisions should be enacted along with many of the 
additional provisions in S. 2589, which Chairman Inhofe introduced 
along with Chairman Domenici of the Energy and Natural Resources 
Committee. Industry representatives previously have testified in detail 
on the provisions of S. 2589, including land withdrawal, changes in the 
regulatory process and the budget treatment of the Nuclear Waste Fund. 
We also identified the need to address contract provisions related to 
used fuel for new nuclear plants.

Waste Confidence Is Affirmed
    The Nation must be confident that policies are in place to ensure 
the safe, secure storage and disposal of used nuclear fuel byproducts. 
This waste confidence determination is reflected in NRC rules requiring 
an NRC finding of ``waste confidence'' to support various licensing 
actions. However, such an approach creates uncertainty because NRC 
regulations and licensing decisions are subject to litigation, and the 
issue is one of public policy, not regulatory or technical 
determination.
    Managing the Nation's used fuel is a firmly established Federal 
obligation and, as such, is a matter of broad national policy under the 
purview of the elected representatives of our country's people. There 
is solid scientific and technical justification to affirm waste 
confidence. In 2001, the National Academy of Sciences confirmed four 
decades of international scientific consensus that geologic disposal is 
the best method for managing used nuclear fuel. Congress approved a 
geologic disposal site at Yucca Mountain in 2002.
    In the Energy Policy Act, Congress included provisions that 
encourage the construction of new nuclear power plants, demonstrating 
public policy confidence in the Nation's ability to manage used reactor 
fuel in the future. In addition, the Energy Department has safely 
operated a geologic disposal site for transuranic radioactive waste 
near Carlsbad, New Mexico, and 34 temporary dry-cask storage facilities 
for used nuclear fuel have been licensed at nuclear power plants. The 
first such facility has been operating since 1986. Congress should 
codify ``waste confidence'' as called for in S. 2589 so that the NRC 
need not address this broad public policy matter as a routine 
regulatory matter.

Artificial Constraints on Repository Operations Are Eliminated
    Currently, there is an artificial limit of 70,000 metric tons (MT) 
on the amount of nuclear waste materials that can be accepted at Yucca 
Mountain. The Environmental Impact Statement for the project analyzed 
emplacement of up to 105,000 MT of commercial nuclear waste products in 
the repository. Additional scientific analyses suggest significantly 
higher capacity easily could be achieved with changes in the repository 
configuration that use only geology that already has been characterized 
and do not deviate from existing design parameters. Advanced nuclear 
fuel cycle technologies could provide significant additional capacity 
for disposing of waste products in Yucca Mountain.
    Decisions on licensing and operation of a deep geologic repository 
at Yucca Mountain should be based on scientific and engineering 
considerations through DOE technical analyses and the NRC licensing 
process, not on artificial, political constraints. Given the decades of 
study and the billions of dollars invested in Yucca Mountain, it makes 
sense that we fully and safely utilize its full potential capacity, 
rather than developing multiple repositories when there is no technical 
reason to do so. S. 2610 will allow the Nation to do just that by 
lifting the artificial 70,000 MT capacity limit.

Clarity and Stability in the Licensing Process Are Enhanced
    The NRC repository licensing process should be restructured to 
ensure that the proceedings are managed effectively, as called for in 
the legislation. First, there must be a reasonable, but finite, 
schedule for review of the authority to ``receive and possess'' fuel 
that would follow approval of the construction license. This would be 
consistent with an established schedule for the initial review of the 
construction license application and could avoid dilatory procedural 
challenges that would undermine the Government's ability to meet its 
contractual obligations and avoid the significant costs of delay.
    Second, clarification must be provided as to what activities are 
authorized to develop used fuel management infrastructure prior to the 
NRC's granting a construction license, including the construction of a 
rail line to connect the Yucca Mountain site with the national rail 
network. Regulatory authority for the transportation system needs to be 
clarified as well.
    Third, the hearing process for the authorization to receive and 
possess fuel should be simplified to provide for clear and concise 
decision making.
    This disciplined approach to the licensing process is wholly 
consistent with the regulatory approach developed over the past several 
years by the NRC to license other nuclear facilities.

Environmental Reviews Are Appropriately Focused
    The legislation takes into account the unprecedented scope and 
duration of environmental reviews that will accompany the construction 
licensing process for the Yucca Mountain facility. It appropriately 
separates those non-nuclear issues related to infrastructure support 
activities from repository licensing and operations.
    The legislation also recognizes the stringent standards that will 
apply to the repository with respect to release of radioactive 
materials and the nature of the materials involved. These standards 
preclude the need to apply additional measures to protect public health 
and the environment. In effect, no compelling reason exists for 
imposing additional review requirements under the Resource Conservation 
and Recovery Act.
    Finally, the legislation seeks to avoid the issuance of duplicative 
air-quality permits; it provides exclusive jurisdiction on this issue 
to the Environmental Protection Agency. It also affirms that the 
project is in the public interest and directs that the State of Nevada 
consider water permits on that basis.

              ADDITIONAL ACTIONS BEYOND S. 2610 ARE NEEDED

    In addition to S. 2610's provisions, we encourage Congress to 
direct DOE to incorporate features into its repository development 
plans that maintain flexibility for future generations to make informed 
decisions based on operational experience, changing energy economics 
and technological developments. It should be made clear that it is the 
intent that the repository design retains the ability to monitor and, 
if needed or desired, retrieve the used fuel.
    The nuclear energy industry supports enhancements to the Yucca 
Mountain repository that would provide greater long-term assurance of 
safety and permit DOE to apply innovative technology at the repository 
as it is developed. These enhancements include:
    <bullet> extensive monitoring of the used nuclear fuel placed in 
the repository and its effects on the surrounding geology for 300 or 
more years;
    <bullet> the ability to retrieve used nuclear fuel from the 
facility for this extended period; and
    <bullet> periodic future reviews of updates to the repository 
license that take into account monitoring results and ensure that the 
facility is operating as designed.
    DOE already has committed to facilitate the use of these elements 
in its repository planning. According to the department's final 
Environmental Impact Statement, for a period of 50 to 300 years, the 
Federal Government will ``collect, evaluate and report on data'' to 
assess the performance of the repository and the ability to retrieve 
the used fuel within the facility, if desired. In addition to 
monitoring material within the facility, DOE will conduct tests and 
analyses to ensure that the repository is constructed and operated 
according to strict guidelines. Although DOE is pursuing these 
elements, congressional direction on the proposed enhancements would 
provide greater certainty on the scientific and regulatory oversight of 
long-term repository operation and the condition of the material stored 
there.
    Doing so would require no modification to the existing Federal 
statutory or regulatory framework. The Energy Department could include 
these enhancements as part of its ``receive and possess'' application 
and the commitment to complete them should be incorporated as a 
condition of the NRC license.
    This direction will offer greater assurance to the public that 
long-term stewardship of used fuel at Yucca Mountain will be carefully 
monitored throughout repository operation. It also would allow DOE to 
take advantage of future technological innovations to improve the 
repository or provide for the potential reuse of the energy that 
remains in the fuel.

    DOE SHOULD MOVE USED NUCLEAR FUEL FROM REACTOR SITES AS SOON AS 
                                POSSIBLE

    Let me now turn to the issue of potential interim storage of used 
nuclear fuel prior to, or in parallel with, licensing and operation of 
Yucca Mountain. A number of proposals have been put forward in the past 
several months on this issue including:
    <bullet> Section 313 of the fiscal 2007 Energy and Water 
Development Appropriations Act, as reported by the Senate Energy and 
Natural Resources Committee, that would establish State or regional 
storage sites;
    <bullet> report language included in the House-passed version of 
this legislation directing the secretary of energy to develop plans for 
interim storage potentially associated with nuclear fuel recycling 
facilities;
    <bullet> S. 2099 introduced by Senator Reid and others that would 
indefinitely retain used nuclear fuel at reactor sites; and
    <bullet> a Funding Availability Opportunity solicitation from DOE 
for localities interested in hosting recycling facilities that would 
include interim storage of used nuclear fuel.
    The industry's top priority is for the Federal Government to meet 
its statutory and contractual obligation to move used fuel away from 
operating and decommissioned reactor sites. The Government already is 8 
years in arrears in meeting this obligation, and it will be at least 
another decade before the repository is completed. That failure is the 
subject of more than 60 lawsuits. Three of these suits, representing 
only a fraction of the reactor sites, have resulted in settlements or 
judgments against the Federal Government totaling $340 million for 
costs incurred.
    Further delays in Federal receipt and movement of used nuclear fuel 
and defense waste products could cost taxpayers more than $1 billion 
per year in life-cycle costs for defense waste sites, operating costs 
at utilities and Yucca Mountain fixed costs, exclusive of litigation 
damages already incurred, according to DOE.
    While DOE moves forward to license, construct and operate the Yucca 
Mountain repository, the Government must take title to used fuel and 
move it to secure Federal facilities as soon as practicable. The 
industry believes that consolidation and storage of used nuclear fuel 
on an interim basis can provide significant benefits in cost, system 
integration, synergy with recycling/reprocessing technology development 
and instill public confidence in the Federal waste management program.

     CONGRESS SHOULD ENHANCE THE GOVERNMENT'S USED FUEL STEWARDSHIP

    In order to fully realize the benefits of nuclear power, and to 
address legitimate questions in the Government's used fuel stewardship, 
the United States must have a credible, long-term program to manage 
used nuclear fuel. This program should integrate a number of essential 
components, including:
    1. the centralized disposal facility at Yucca Mountain, NV;
    2. advanced proliferation-proof, fuel processing and fuel 
fabrication facilities and advanced reactors designed to extract the 
maximum possible energy from used nuclear fuel, and reduce the 
radiotoxicity and volume of the waste by-products requiring permanent 
isolation in the repository, and
    3. interim storage facilities until the centralized disposal 
facility is operational, co-located with the advanced fuel processing 
and recycling facilities.
    Used nuclear fuel is stored safely today at nuclear plant sites, 
either in pool storage or in dry casks.
    That said, however, it is absolutely essential to public and State 
policymaker confidence that the Federal Government identify and develop 
sites for centralized interim storage, ideally linked to future 
reprocessing facilities, and begin the process of moving used nuclear 
fuel to these interim storage facilities. Further delays in Federal 
receipt and movement of used nuclear fuel and defense waste products 
could cost taxpayers over $1 billion per year.
    The industry believes that consolidation and storage of used 
nuclear fuel on a temporary basis can provide significant benefits in 
cost, system integration, synergy with recycling/reprocessing 
technology development and confidence in the Federal waste management 
program.
    The nuclear energy industry believes that the best approach would 
be for the Federal Government to begin to move fuel to Nevada now, 
close to the planned repository.
    In addition, we urge Congress to evaluate alternative interim 
storage proposals. We recommend the following principles:
    <bullet> Minimize the number of interim storage sites to reduce 
costs and maximize efficiencies of consolidation.
    <bullet> Provide host site benefits, ideally linking interim 
storage to recycling/reprocessing technology development, as an 
incentive for voluntary participation.
    <bullet> Recognize that while the Nuclear Waste fund could be used 
to pay for this interim storage, it should not be used to develop the 
complementary technology development.
    <bullet> NRC must be provided with the necessary resources and 
appropriate management focus.
    It appears to us that one or two interim storage sites that provide 
benefits desired by the host State and community are the appropriate 
approach. We are encouraged that DOE has advised Congress, in its 
solicitation for prospective sites for nuclear fuel recycling 
facilities, that some interim storage of used nuclear fuel will be 
necessary. Several communities have expressed initial interest in 
participating in such a project. We believe Congress should work with 
DOE, industry and potential host sites to determine the steps needed to 
facilitate the movement of used fuel from utility sites and incorporate 
appropriate provisions into the proposed legislation.
    The industry does not believe that the approach suggested in S. 
2099 by any measure meets the Government's statutory obligation to 
dispose of used nuclear fuel. In reality, S. 2099 provides no benefit; 
it dictates immediate movement of all used fuel at reactor sites into 
dry storage a move that could add as much as $800 million a year over 5 
years to the cost of producing nuclear energy. In effect, no used fuel 
moves off nuclear plant sites.

         NEW CONTRACTS FOR DISPOSAL OF SPENT FUEL ARE REQUIRED

    As utilities prepare to license and build new nuclear power plants, 
it is essential that appropriate new contracts for disposal of spent 
nuclear fuel between utilities and DOE be in place, reflecting 
developments since these contracts were originally drafted in the 
1980s. For example, the 1998 acceptance date in the existing contracts 
must be revised in contracts executed for new plants to account for the 
future dates of operation of new plants.

    CONGRESS SHOULD LEGISLATE AN APPROPRIATE DISPOSAL STANDARD FOR 
                             YUCCA MOUNTAIN

    The previously issued EPA disposal standard of 10,000 years was 
appropriately protective of public health and safety and was consistent 
with other hazardous material regulation in the United States. This 
standard was remanded by court finding on a technicality. Congress 
should legislate the appropriate 10,000 year standard.

                      USED NUCLEAR FUEL RECYCLING

    Finally, let me address the Global Nuclear Energy Partnership 
program. The nuclear energy industry strongly supports research and 
development of advanced fuel cycle technologies incorporated in the 
Advanced Fuel Cycle Initiative (AFCI). In anticipation of a major 
expansion of nuclear power in the United States and globally, it is 
appropriate to accelerate activities in this program. However, 
regardless of the success of AFCI technology, a repository will be 
necessary to handle defense wastes and commercial used nuclear fuel and 
waste byproducts. This will be the case regardless of any new fuel 
cycle ultimately developed.
    President Bush has presented a compelling vision for a global 
nuclear renaissance through the Global Nuclear Energy Partnership 
(GNEP). This initiative provides an important framework to satisfy U.S. 
and world needs for an abundant source of clean, safe nuclear energy 
while addressing challenges related to fuel supply, long-term 
radioactive waste management and proliferation concerns. As recently 
introduced by DOE, it may be possible that currently available 
technologies could be used creatively to jump-start the development of 
the needed advanced nuclear fuel cycle technologies.
    We appreciate the steps that DOE has taken to solicit industry 
views on the timing, direction and defining roles of interested parties 
in GNEP. The expressions of interest that DOE received last week will 
help the department and Congress make more informed decisions on the 
best way to proceed with research and development of these 
technologies. NEI, in its expression of interest, said it fully 
supports the technologies underlying GNEP and encourages the department 
to proceed with research, development and deployment of the 
consolidated fuel treatment center and the advanced burner reactor.
    We recognize that Congress has important questions regarding this 
program. In particular, special attention needs to be given to how 
facilities would be licensed and the potential impact this could have 
on the NRC's resources for major licensing actions on new plants and 
Yucca Mountain in parallel time periods.
    DOE's near-term focus for GNEP is to determine, by 2008, how to 
proceed with demonstration of advanced recycling technologies and other 
technological challenges. Consequently, the industry fully supports 
increased funding for AFCI in fiscal 2007. However, monies collected 
for the Nuclear Waste Fund should not be used, and it must be 
recognized that neither AFCI nor GNEP reduces the near-term imperative 
to develop the Yucca Mountain repository.

                               CONCLUSION

    We must never lose sight of the Federal Government's statutory 
responsibility for civilian used nuclear fuel disposal, as stated by 
Congress in the Atomic Energy Act of 1954 and the Nuclear Waste Policy 
Act of 1982. The industry fully supports the fundamental need for a 
repository so used nuclear fuel and the byproducts of the Nation's 
nuclear weapons program are safely and securely managed in a specially 
designed, underground facility. World-class science has demonstrated 
that Yucca Mountain is an eminently suitable site for such a facility.
    A viable used fuel management strategy is necessary to retain long-
term public confidence in operating existing nuclear power plants and 
to build new nuclear power plants to meet our Nation's growing 
electricity needs and fuel our economic growth. The public confidence 
necessary to support construction of new nuclear plants is linked to 
successful implementation of an integrated national used fuel policy, 
which includes a continued commitment for the long-term disposition of 
used nuclear fuel. This requires a commitment from the Administration, 
Congress and other stakeholders to ensure that DOE makes an effective 
transition from a scientific program to a licensing and construction 
program, with the same commitment to safety. New waste management 
approaches, including interim storage and nuclear fuel recycling, are 
consistent with timely development of Yucca Mountain.
    Enactment of S. 2610 is a critical prerequisite to implementing our 
national policy for used fuel management.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T7642.006
                                 

                              ----------                              

      Statement of Victor Gilinsky, Independent Energy Consultant

    Mr. Chairman, Members of the Committee:
    Thank you for inviting me to comment on the bills before you that 
deal with spent fuel. I've been involved with nuclear waste issues from 
1971 when I was on the staff of the Atomic Energy Commission. I later 
served two terms on the Nuclear Regulatory Commission--nominated first 
by President Ford and later by President Carter. Since then I've been 
an independent consultant. In the past few years I have assisted the 
State of Nevada on Yucca Mountain issues.
    I would like to address briefly three NRC-related items--interim 
spent fuel storage, the NRC's Waste Confidence Rule, and the 
Administration's Global Nuclear Energy Partnership:

                            INTERIM STORAGE

    No matter what you think about Yucca Mountain's future, it seems 
inescapable that we are going to need a lot of spent fuel storage. The 
generating companies are preparing themselves by building installations 
at their sites to store spent fuel in dry casks. The technology is 
straightforward and the licensing of these sites does not appear to 
strain the NRC very much.
    It would be good to also have regional storage sites for overflow 
capacity, to collect the spent fuel from shut down reactors, and 
eventually to collect all the spent fuel under a dedicated storage 
management. Senator Domenici's bill allows for such central facilities.
    In the short run, for safety and security, we should move spent 
fuel from reactor pools into dry casks as soon as it cools 
sufficiently. Senator Reid's bill addresses this point.
    All this would make sense even if you thought Yucca Mountain was on 
track. Experience, however, suggests it isn't. DOE's projected opening 
date has slipped 7 years since Congress voted on the Yucca Mountain 
Resolution four years ago. Last week the Interior Secretary vetoed the 
Private Fuel Storage facility in Utah in part because he concluded it 
was not prudent to rely on Yucca Mountain opening.

                            WASTE CONFIDENCE

    This lead directly to the second item--the NRC's Waste Confidence 
Rule.
    The current version of the rule, adopted in 1990, says the NRC is 
confident that a geologic repository will open by 2025. The function of 
the rule was to protects reactor licensing from challenges based on the 
waste issue, although as we approach 2025 that role becomes more 
doubtful.
    There is a more serious problem. In 1990 the NRC said if Yucca 
Mountain failed to get licensed there would be time to find another 
site before 2025. Today that claim is no longer tenable. So, in effect, 
the rule now says NRC is confident Yucca Mountain will be licensed. In 
other words, NRC is prejudging the case.
    Nevada petitioned NRC to eliminate the date, assuming it can do so 
responsibly. The Commission refused to act, even though a change would 
also benefit its power reactor licensees. In any event, Nevada 
appealed, and the case is being argued today before the Court of 
Appeals.
    Some of the bill before you would have Congress make the change for 
the NRC. Because any such change implies a safety judgment, I believe 
the more responsible course is for the NRC itself to do it through 
rulemaking.

                   GLOBAL NUCLEAR ENERGY PARTNERSHIP

    My third item concerns GNEP, the Administration's grand plan for 
developing technology to transform the future of nuclear power world-
wide. It is not likely to demand much in the way of NRC resources for a 
long time.
    That may change, however, if DOE pursues its latest idea to ``fast 
track'' the GNEP demonstration plants. DOE acts as if it is sure of 
success, but I have to say I don't know of any example of DOE 
developing a major technology to full scale and then transferring it 
successfully to industry. GNEP contains concepts that might be useful 
if they worked, but they are a long way from being practicable.
    GNEP reminds me of the AEC's fast breeder program of the 1960s. In 
its eagerness to jump to the next stage the Commission neglected basic 
technical issues that were vital to nuclear power's success in the 
short run. That neglect led to the problems of the 1970s, and was a 
significant contributor to the Three Mile Island accident.
    The nuclear industry learned from the accident to focus on running 
its plants safely and economically. It also learned that useful 
technology advances in careful incremental steps. DOE and the national 
laboratories haven't learned that lesson and are impatient to jump 
ahead to advanced reprocessing and fast breeders. At a minimum, DOE 
should have to pass NRC safety licensing for any substantial 
demonstration facilities. That will slow them down, but it will also 
help to keep DOE's feet on the ground.
                                 ______
                                 
  Response by Victor Gilinsky to an Additional Question from Senator 
                                 Inhofe

    Question. Would it not be more cost-effective and practical for the 
waste to be stored at one location in a retrievable manner for both 
reprocessing, reuse and final disposal?
    Response. I think it would be cost-effective to store spent fuel in 
central locations. In any such calculations we have to take account of 
the existing dry cask storage facilities and those that are getting 
built. In any case, I support creating some central capacity to provide 
overflow capacity for the operating reactor, to collect storage from 
the shut down reactors, and eventually to collect the spent fuel under 
management that is solely concerned with waste storage. We would have 
been well-served if we had built central surface, or near-surface, 
spent fuel storage facilities some time ago. I have attached a speech I 
gave in 1983 when I was an NRC commissioner making this very point. I 
would be grateful if you would include it in the hearing record because 
it shows two things: that the problem is not a new one and that in the 
past important sectors of the nuclear community adopted ideological 
positions that undermined practical solutions to the waste problem. In 
the end the ideological goals turned out to be unrealistic.
    I mention this last point because it is happening again in the form 
of the Global Nuclear Energy Partnership. I believe in your opening 
statement you expressed concern that GNEP would short-change important 
practical activities in support of current nuclear power plants. This 
brings me to the last part of your question, which mentions collocating 
storage with reprocessing, reuse, and final disposal.
    Reprocessing and reuse make no economic sense for the foreseeable 
future. That is the clear message from the nuclear industry. And of 
course putting plutonium into commercial channels poses security risks. 
As for final disposal, the only site under consideration is Yucca 
Mountain. On the basis of my familiarity with the issues as a 
consultant for Nevada it is evident this is a poor site that could not 
pass a reasonable siting evaluation. The Energy Department is trying to 
muscle its way through despite this, but it remains an iffy 
proposition. In sum, at this point these three activities--
reprocessing, reuse, and Yucca Mountain--are dubious propositions and 
it doesn't make sense to tie the practical requirement for spent fuel 
storage to these three bad ideas.
                                 ______
                                 
         Response by Victor Gilinsky to an Additional Question 
                         from Senator Voinovich

    Question. Mr. Gilinsky, it appears from your testimony that you are 
advocating having dry cask storage at each nuclear power plant 
regardless of the Yucca Mountain's future. I am not sure if I 
understand your reasoning for this, especially when you agree with the 
other witnesses that spent fuels are safe in the spent fuel pools. Who 
pays for these dry casks? Won't the rate payers ultimately have to pay 
for them in addition to what they have paid already for Yucca Mountain?
    Response. First, nearly all the nuclear operators are already 
building dry cask storage facilities on or near their reactor sites. 
Even if Yucca Mountain were more or less on schedule, it would take 
many years to collect the spent fuel and most of the reactor operators 
would have exceeded their spent fuel pool limits.
    Dry cask storage is an option after the spent fuel has cooled for 
several years. At that point however it has many advantages both in 
terms of safety and security, as I think is intuitively obvious. The 
basic point is that the dry cask protection is passive and doesn't 
depend on hydraulic and electrical systems operating as do spent fuel 
pools. A recent National Academy of Science study stated that ``Dry 
cask storage has intrinsic security advantages over spent fuel pool 
storage . . .''
    The point I made in my testimony was that the Federal Government 
should encourage operators to move their spent fuel into dry casks as 
early as possible rather than do so only when they are out of spent 
fuel pool capacity. The industry resists this because of the expense. I 
think the safety and security advantages to the public are substantial 
enough to warrant the expense, which as you point out will ultimately 
be paid by the customer. But then the customer gets the benefit. I 
don't see that these safety and security arguments are affected by what 
has been spent on Yucca Mountain. How that money was used by the Energy 
Department is an important but separate issue.

[GRAPHIC] [TIFF OMITTED] T7642.014

[GRAPHIC] [TIFF OMITTED] T7642.015

[GRAPHIC] [TIFF OMITTED] T7642.016

[GRAPHIC] [TIFF OMITTED] T7642.017

[GRAPHIC] [TIFF OMITTED] T7642.018

[GRAPHIC] [TIFF OMITTED] T7642.019

[GRAPHIC] [TIFF OMITTED] T7642.020

[GRAPHIC] [TIFF OMITTED] T7642.021

[GRAPHIC] [TIFF OMITTED] T7642.022

[GRAPHIC] [TIFF OMITTED] T7642.023

[GRAPHIC] [TIFF OMITTED] T7642.024

[GRAPHIC] [TIFF OMITTED] T7642.025

[GRAPHIC] [TIFF OMITTED] T7642.026

  

                                  <all>

</pre></body></html>
